<html>
<title> - H.R. 4057</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
                        H.R. 4057--THE SAMARITAN
                         INITIATIVE ACT OF 2004

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                   HOUSING AND COMMUNITY OPPORTUNITY

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 13, 2004

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 108-99



                    U.S. GOVERNMENT PRINTING OFFICE
96-528                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                    MICHAEL G. OXLEY, Ohio, Chairman

JAMES A. LEACH, Iowa                 BARNEY FRANK, Massachusetts
DOUG BEREUTER, Nebraska              PAUL E. KANJORSKI, Pennsylvania
RICHARD H. BAKER, Louisiana          MAXINE WATERS, California
SPENCER BACHUS, Alabama              CAROLYN B. MALONEY, New York
MICHAEL N. CASTLE, Delaware          LUIS V. GUTIERREZ, Illinois
PETER T. KING, New York              NYDIA M. VELAZQUEZ, New York
EDWARD R. ROYCE, California          MELVIN L. WATT, North Carolina
FRANK D. LUCAS, Oklahoma             GARY L. ACKERMAN, New York
ROBERT W. NEY, Ohio                  DARLENE HOOLEY, Oregon
SUE W. KELLY, New York, Vice Chair   JULIA CARSON, Indiana
RON PAUL, Texas                      BRAD SHERMAN, California
PAUL E. GILLMOR, Ohio                GREGORY W. MEEKS, New York
JIM RYUN, Kansas                     BARBARA LEE, California
STEVEN C. LaTOURETTE, Ohio           JAY INSLEE, Washington
DONALD A. MANZULLO, Illinois         DENNIS MOORE, Kansas
WALTER B. JONES, Jr., North          MICHAEL E. CAPUANO, Massachusetts
    Carolina                         HAROLD E. FORD, Jr., Tennessee
DOUG OSE, California                 RUBEN HINOJOSA, Texas
JUDY BIGGERT, Illinois               KEN LUCAS, Kentucky
MARK GREEN, Wisconsin                JOSEPH CROWLEY, New York
PATRICK J. TOOMEY, Pennsylvania      WM. LACY CLAY, Missouri
CHRISTOPHER SHAYS, Connecticut       STEVE ISRAEL, New York
JOHN B. SHADEGG, Arizona             MIKE ROSS, Arkansas
VITO FOSSELLA, New York              CAROLYN McCARTHY, New York
GARY G. MILLER, California           JOE BACA, California
MELISSA A. HART, Pennsylvania        JIM MATHESON, Utah
SHELLEY MOORE CAPITO, West Virginia  STEPHEN F. LYNCH, Massachusetts
PATRICK J. TIBERI, Ohio              BRAD MILLER, North Carolina
MARK R. KENNEDY, Minnesota           RAHM EMANUEL, Illinois
TOM FEENEY, Florida                  DAVID SCOTT, Georgia
JEB HENSARLING, Texas                ARTUR DAVIS, Alabama
SCOTT GARRETT, New Jersey            CHRIS BELL, Texas
TIM MURPHY, Pennsylvania              
GINNY BROWN-WAITE, Florida           BERNARD SANDERS, Vermont
J. GRESHAM BARRETT, South Carolina
KATHERINE HARRIS, Florida
RICK RENZI, Arizona

                 Robert U. Foster, III, Staff Director
           Subcommittee on Housing and Community Opportunity

                     ROBERT W. NEY, Ohio, Chairman

MARK GREEN, Wisconsin, Vice          MAXINE WATERS, California
    Chairman                         NYDIA M. VELAZQUEZ, New York
DOUG BEREUTER, Nebraska              JULIA CARSON, Indiana
RICHARD H. BAKER, Louisiana          BARBARA LEE, California
PETER T. KING, New York              MICHAEL E. CAPUANO, Massachusetts
WALTER B. JONES, Jr., North          BERNARD SANDERS, Vermont
    Carolina                         MELVIN L. WATT, North Carolina
DOUG OSE, California                 WM. LACY CLAY, Missouri
PATRICK J. TOOMEY, Pennsylvania      STEPHEN F. LYNCH, Massachusetts
CHRISTOPHER SHAYS, Connecticut       BRAD MILLER, North Carolina
GARY G. MILLER, California           DAVID SCOTT, Georgia
MELISSA A. HART, Pennsylvania        ARTUR DAVIS, Alabama
PATRICK J. TIBERI, Ohio
KATHERINE HARRIS, Florida
RICK RENZI, Arizona


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    July 13, 2004................................................     1
Appendix:
    July 13, 2004................................................    59

                               WITNESSES
                         Tuesday, July 13, 2004

Buckley, Stephanie, Director, United States Veterans Initiative 
  Inc., Prescott, AZ.............................................     6
Hess, Robert V., Deputy Managing Director for Special Needs 
  Housing, Adult Services, Philadelphia, PA......................     7
Hickenlooper, Hon. John W., Mayor, City and County of Denver, CO.    43
Mangano, Philip, Executive Director, Interagency Council on 
  Homelessness...................................................    44
Mauck, James, President and CEO of Catholic Charities and 
  Community Services in the Archdiocese of Denver, on behalf of 
  Catholic Charities USA, Volunteers of America, and Lutheran 
  Services in America............................................     9
Netburn, Mitchell, Executive Director, Los Angeles Homeless 
  Services Authority.............................................    11
Poppe, Barbara, Executive Director, Community Shelter Board, 
  Columbus and Franklin County, OH...............................    13
Pucci, Mike T., Executive Director, Housing Authority of the City 
  of Alameda, Alameda, CA........................................    15
Roman, Nan, President, National Alliance to End Homelessness.....    16
Simpson, Hon. Bobby, Mayor-President, Baton Rouge, LA............    38
Whitehead, Donald, Executive Director, National Coalition for the 
  Homeless.......................................................    18

                                APPENDIX

Prepared statements:
    Oxley, Hon. Michael G........................................    60
    Sanders, Hon. Bernard........................................    61
    Matheson, Hon. Jim...........................................    64
    Buckley, Stephanie...........................................    65
    Hess, Robert V...............................................    71
    Hickenlooper, Hon. John W....................................    76
    Mangano, Philip..............................................    79
    Mauck, James.................................................    88
    Netburn, Mitchell............................................   106
    Poppe, Barbara...............................................   111
    Pucci, Mike T................................................   137
    Roman, Nan...................................................   142
    Simpson, Hon. Bobby..........................................   148
    Whitehead, Donald............................................   150

              Additional Material Submitted for the Record

Frank, Hon. Barney:
    Resolution by U.S. Conference of Mayors......................   155
Department of Health and Human Services, prepared statement......   157
Department of Housing and Urban Development, prepared statement..   160
Department of Labor, prepared statement..........................   166
Department of Veterans Affairs, prepared statement...............   173
National Low Income Housing Coalition, prepared statement........   176


                        H.R. 4057--THE SAMARITAN
                         INITIATIVE ACT OF 2004

                              ----------                              


                         Tuesday, July 13, 2004

             U.S. House of Representatives,
 Subcommittee on Housing and Community Opportunity,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 10:02 a.m., in 
Room 2128, Rayburn House Office Building, Hon. Bob Ney 
[chairman of the subcommittee] presiding.
    Present: Representatives Ney, Baker, Hart, Tiberi, Renzi, 
Waters, Sanders, Watt, Frank, Scott, Davis. Also present were 
Representatives Stark and Matheson.
    Mr. Renzi. [Presiding.] Good morning. This hearing of the 
Subcommittee on Housing will come to order. I thank my 
neighbor, Mr. Scott, for attending.
    This legislation, guided by the Interagency Council on 
Homelessness, creates a collaborative grant that authorizes the 
VA, HHS and HUD to pool their resources and to work together to 
provide housing with supportive services to those experiencing 
chronic homelessness.
    In May of this year, Veterans Affairs Deputy Secretary 
Mansfield testified before the VA committee on the issue of 
homelessness and assistance programs for our nation's veterans 
and the status of the goal to end chronic homelessness. The 
Deputy Secretary explained that they work in a variety of 
venues with many partners at the federal, state and local 
levels, and with faith-based and other community providers. 
Most notably, he states that only through such effective and 
extensive collaborations, combined with innovation, can the 
opportunities for success be maximized.
    Approximately 150,000 to 200,000 people nationally are 
categorized as chronically homeless. There is so much great 
need in this community that unfortunately this population 
consumes a disproportionate amount of emergency resources, 
specifically in shelters, emergency rooms and hospitals. These 
costs are being incurred by communities year after year. One 
research study followed 15 chronically homeless adults and 
discovered that in 18 months they had made 299 trips to 
hospital emergency rooms at a cost of $967,000 to the community 
public health system. The cost of providing supportive housing 
is substantially offset by the savings of not having these 
individuals continue this cycle.
    Additionally, the quality of life for both the individuals 
and the communities are vastly improved. One of the 
misunderstandings of chronic homelessness is that it is not 
just an issue for the urban areas, but also affects the rural 
areas. In Yavapai and Coconino Counties in my home State of 
Arizona, we have over 2,000 estimated people who are 
chronically homeless. To this end, I am pleased today to see 
Stephanie Buckley on the witness list. Ms. Buckley serves as 
site director for the U.S. Veterans Initiative in Prescott, 
Arizona.
    U.S. VETS is the largest organization in the country 
dedicated to helping homeless veterans. It is a nationally 
recognized leader in the field of service delivery to veterans. 
U.S. VETS offers housing, case management and employment 
assistance to hundreds of homeless veterans in and throughout 
Northern Arizona. Their career center has placed over 70 
percent of our veterans in competitive employment. Their 
outreach teams visit the parks, forests and shelters throughout 
the area to offer our services and make veterans aware of our 
program.
    I am happy to see this introduction of the Samaritan 
Initiative has begun, and that we will together today discuss 
the effects of the homelessness. As we hear today, many groups 
will have additional needs and they would like to see this bill 
addressed. However, I am pleased that this legislation has 
garnered solid support by individuals and groups, including the 
Enterprise Foundation, the National Alliance for the Mentally 
Ill, National AIDS Housing Coalition, National Alliance to End 
Homelessness, the Corporation for Supportive Housing, the 
Association for Service Disabled Veterans, the National 
Coalition for Homeless Veterans, the National League of Cities, 
and the United States Conference of Mayors.
    I look forward to the testimony of the witnesses and thank 
each of you for coming all the way here to Washington. Let me 
begin with the recognition of members's opening statements for 
3 minutes, and recognize Mr. Scott.
    Mr. Scott. Thank you very much, Mr. Renzi. I want to thank 
Chairman Ney and Ranking Member Waters, and of course you, Mr. 
Renzi, for presiding over this important hearing. I also 
commend the fine job that you are doing in your work in dealing 
with housing, especially with some of our Indian population and 
populations in the Western United States.
    Chronic homelessness is an extraordinarily important issue. 
In metro Atlanta in the area that I represent and other Georgia 
cities, we are currently implementing 10-year plans to end 
chronic homelessness. I believe that the resources discussed in 
this hearing today could further the efforts in Georgia and 
this nation to address these community needs.
    In December 2002, the United Way of Metropolitan Atlanta 
convened a 16-member Commission for the Homeless, led by 
retired King and Spaulding law partner Horace Sibley. The 
Commission was co-chaired by civic leader Myrtle Davis and Dr. 
Leon Sullivan, president emeritus of the Morehouse College of 
Medicine. The Commission carried out a comprehensive and 
exclusive process that included, one, reviewing plans that had 
already been developed locally; two, collecting data from 
service providers, faith and other community leaders and 
government representatives through one-on-one interviews and 
surveys, and incorporating findings from local and national 
research studies on homelessness conducted by Deloitte 
Consulting.
    In addition, the Commission's efforts were supported by 
working groups comprised of more than 90 individuals 
representing 64 organizations. The Commission used this 
information and compiled data in combination with input from 
the community to design a framework for practical, fundable 
solutions. At the end of February 2003, the Commission unveiled 
the Blueprint to End Homelessness in Atlanta in 10 years.
    These efforts were complemented by a tremendous effort in 
the community led by Duane Ackerman of BellSouth and other 
corporate and civic leaders to truly address and get underneath 
the problem of homelessness. While I do support efforts to 
specifically target chronic homelessness, I also believe that 
this committee should focus on eliminating all homeless 
populations altogether. To that end, I am a cosponsor of the 
National Housing Trust Fund, H.R. 1102, which will provide 
funding for 1.5 million units of affordable housing over the 
next 10 years.
    I am also concerned with the loss of $1.6 billion from the 
Section 8 housing voucher program. We could provide better 
assistance to help families become self-sustaining, and we 
could not find a better way of doing it than helping them with 
rental assistance. These cuts are misguided and they should be 
reversed.
    Thank you again, Mr. Chairman, and I look forward to this 
morning's testimony.
    Mr. Renzi. I thank the gentleman.
    The gentleman from Vermont, Mr. Sanders.
    Mr. Sanders. Thank you very much, Mr. Chairman, and thank 
you for holding this important hearing on an issue of great 
significance to our country.
    As I understand it, the Samaritan Initiative authorizes $70 
million to provide permanent housing services for the homeless, 
with the goal of ending chronic homelessness within 10 years. 
Mr. Chairman, that is a goal that I certainly applaud and I see 
no reason for anyone to oppose this bill. Anything that 
Congress can do to reduce homelessness in this country is a 
step forward and should be strongly supported.
    But Mr. Chairman, let us not delude ourselves: $70 million 
within the context of the problem of homelessness and 
affordable housing in this country is not a real solution to 
the affordable housing crisis that our country is experiencing. 
And I might add, at the same time that the Administration is 
supporting a new $70 million program to combat homelessness, it 
is also lobbying Congress for a $1.6 billion cut in the 
nation's most important affordable housing program in this 
country, the Section 8 rental assistance program. So it is fine 
that we are adding $70 million for chronic homeless services, 
but cutting $1.8 billion for affordable housing more than 
negates that $70 million.
    The Administration's Section 8 budget for fiscal year 2005 
is $1.6 billion for what is needed to renew all existing 
Section 8 rental assistance for some two million families. This 
means that up to 250,000 low-income families, senior citizens 
and people with disabilities are in danger of losing their 
homes or being thrown out on the street, including 740 families 
in my own small State of Vermont. In other words, if the 
Administration's Section 8 budget is approved, more people in 
this country will experience homelessness even if the Samaritan 
Initiative is signed into law. I cannot quite follow the sense 
of that, of putting some money to help people not be homeless 
at the same time you are creating more homelessness over there. 
We are taking from Peter to pay Paul.
    Mr. Chairman, as you well know, there is an affordable 
housing crisis in this country. More than 14 million people are 
paying over 50 percent of their limited incomes on housing; 3.5 
million in this country will experience homelessness this year, 
including 1.35 million children and 500,000 veterans.
    Mr. Chairman, there is a solution, a serious solution to 
this problem. I have introduced and now have 213 tripartisan 
cosponsors on the National Affordable Housing Trust Fund. This 
legislation has been endorsed by over 5,000 organizations 
throughout the country. This legislation would provide the 
resources necessary to construct, preserve and rehabilitate at 
least 1.5 million affordable housing units over the next 
decade, and would lead to the creation of 1.8 million new jobs. 
Mr. Chairman, that is a serious solution to address the housing 
crisis.
    Thank you very much.
    Mr. Renzi. I thank the gentleman for his words.
    Mr. Stark, did you want to introduce your witness, or have 
any comments?
    Mr. Stark. Thank you very much, Mr. Chairman, for affording 
me the privilege of visiting with you in this distinguished 
committee today. I am very pleased. Probably it is little 
known, but I used to sit on this committee some 30 years ago, 
and have enjoyed watching the committee do excellent work in 
the area of housing.
    We are faced today with a serious problem, and it is my 
privilege to introduce Mr. Michael Pucci, the executive 
director of the Housing Authority of the City of Alameda. It is 
a city of 72,000 people, home formerly to the Alameda Naval Air 
Station. We have 1,600 Section 8 housing vouchers and almost 
600 units. I think Mr. Pucci has been in this business over 30 
years, if I am not mistaken. It is vitally important, through 
changes that we are trying to correct, and probably going to 
cause an increase in homelessness. I guess I would consider it 
penny-wise and pound-foolish. We have an established system. I 
certainly know that in California it has been the premier 
method by which we have been able to provide housing for those 
less fortunate. We have the situation of having extremely 
expensive housing, for which many of us who are fortunate 
enough to own a house should be very thankful, but for those 
who cannot, it just exacerbates their problem.
    So along with Mr. Pucci and the City of Alameda, I have 
been working with the members of this committee and you, Mr. 
Chairman, and others to see if we could not encourage HUD to be 
a little more generous in this program, perhaps carry us for 
another year while we find a solution that would be more 
suitable. I hope that this distinguished committee can reverse 
some of the changes or moderate them that are being made in the 
Section 8 law to protect those. I think that Mr. Pucci and his 
colleagues at the witness table, I think we will hear a lot of 
discussion about what we could do in a very modest way relative 
to the total federal budget to help many of our constituents.
    Again, I appreciate your interest. I know that the State of 
Arizona will be well served. I thank you again for allowing me 
to introduce Mr. Pucci. Thanks, Mr. Chairman.
    Mr. Renzi. I thank the gentleman from California.
    The gentleman from Ohio, Mr. Tiberi.
    Mr. Tiberi. Thank you, Mr. Chairman. I want to thank you 
for your leadership in introducing this legislation. I am 
pleased to be a cosponsor with you in this effort.
    It is my pleasure to introduce a friend of mine from 
Columbus, Ohio, from my community, who is the executive 
director and has been since 1995 of the Community Shelter 
Board. Barbara Poppe has over 20 years of experience in working 
in the nonprofit, homelessness and housing-related 
organizations. The Community Shelter Board is a nationally 
recognized nonprofit in charge of funding, planning and 
coordinating prevention, shelter and housing to end 
homelessness in Columbus and Central Ohio, Franklin County. 
Barbara received the 2003 Buddy Gray Award for homeless 
activism from the National Coalition for the Homeless. She 
received the 2002 citizens of the year award from the Central 
Ohio Public Relations Society of America. She has published and 
presented on various homeless research topics, including 
strategies to end homelessness, needs assessment, chemical 
dependency treatment and employment and training.
    Mr. Chairman, we are really lucky to have Barbara here 
today. She has done more for ending homelessness and more for 
the homeless in Central Ohio than anyone in the history of 
Columbus. On a personal note, she is a very wonderful person 
and it is a treat to have her here today. Barbara, thank you so 
much for spending time here in DC to share your experiences 
with us.
    Mr. Renzi. Thank you, Mr. Tiberi.
    We will go ahead and introduce the witnesses now. I am 
grateful to have all of you here. Panel one consists of Ms. 
Stephanie Buckley. Ms. Buckley is the director of United States 
Veterans Initiative, Inc. in Prescott, Arizona. She is also 
served the State of Arizona as a child protective services case 
manager.
    Mr. Robert V. Hess is the deputy managing director for 
special needs housing, Adult Services, for the City of 
Philadelphia, Pennsylvania. Mr. James Mauck is the president 
and CEO of Catholic Charities and Communities Services, 
Archdiocese of Denver, and is testifying on behalf of Catholic 
Charities USA, Volunteers of America, and Lutheran Services in 
America. Catholic Charities is a nationwide alliance of 
Catholic groups working to alleviate the daily struggles of our 
country's less fortunate.
    Mr. Mitchell Netburn is the executive director for the Los 
Angeles Homeless Services Authority, or LAHSA. LAHSA is a joint 
powers authority created by the City and County of Los Angeles 
and is responsible for planning, funding and coordinating local 
homeless programs.
    Ms. Barbara Poppe, as Mr. Tiberi just introduced, is the 
executive director for the Community Shelter Board of the City 
of Columbus and Franklin County, Ohio, where she has been 
working for the last 5 years. Prior to her current position, 
Ms. Poppe served as executive director for Friends of the 
Homeless and served as assistant director for the University of 
Cincinnati's Department of Environmental Health.
    Mr. Mike Pucci is the executive director for the Housing 
Authority of the City of Alameda, California, a good Italian 
American, welcome. Ms. Nan Roman is the president of the 
National Alliance to End Homelessness. The National Alliance to 
End Homelessness is a nonpartisan, nonprofit organization 
founded in 1983 by a group of community leaders with the mutual 
goal of ending homelessness. And Mr. Donald Whitehead, who is 
the executive director of the National Coalition for the 
Homeless, which is the nation's oldest and largest advocacy 
organization that works exclusively with and on behalf of 
people experiencing homelessness.
    I welcome each of you and I am grateful you have come all 
this way. Without objection, your written testimony will be 
part of the record. Each of you will be recognized for 5 
minutes to summarize your testimony. We will begin with Mrs. 
Buckley.
    Thank you.

    STATEMENT OF STEPHANIE BUCKLEY, DIRECTOR, UNITED STATES 
            VETERANS' INITIATIVE INC., PRESCOTT, AZ

    Ms. Buckley. On behalf of the United States Veterans 
Initiative, I appreciate the opportunity to discuss the 
recommendations on H.R. 4057, which we hope will assist 
programs serving homeless veterans.
    We have been operating at the Prescott site since January 
16, 2003. In that time, we have been able to serve 206 veterans 
in most of Northern Arizona, which is a rural area. Seventy-
four percent of our veterans leaving our program have been able 
to be successfully discharged into homes or apartments. We have 
been able to find 112 jobs in a rural area for our veterans. 
Two of our residents have been able to complete their college 
degrees since being in our program.
    Every year, we are able to outreach to over 900 veterans in 
our area through forests and deserts and the 20 different 
organizations in Northern Arizona. As the representative 
mentioned, there are over 2,000 veterans in Yavapai and 
Coconino Counties alone. U.S. VETS has had a positive impact on 
the domiciliary, which we are co-located. The domiciliary has 
increased in capacity from 75 percent to 92 percent, and the 
length of stay in the domiciliary has decreased from 120 days 
to 98 days.
    U.S. VETS supports any measure that will provide assistive 
programs for the homeless, particularly those making provision 
for our homeless veterans. H.R. 4057 introduced by 
Representative Rick Renzi is a valuable opportunity for rural 
communities to address the homeless veterans that sleep on our 
streets every night.
    We do have some concerns. The $10 million appropriated by 
the VA to perform its functions in the multi-department 
collaboration program is set up simply as a directive to the 
VA, earmarked previously authorized funding for treatment of 
homeless veterans under medical care, rather than a separate 
and distinct authorization. This really does nothing to 
increase the care of homeless veterans. We recommend a new line 
item authorized for the Samaritan services within the VA 
medical care, rather than a $10 million redirection of existing 
VA specialized homeless service programs. The VA component of 
the Samaritan program should not be funded at the expense of 
existing programs which are already overstretched and 
underfunded.
    The legislation required applicants to provide 25 percent 
non-federal cash or in-kind match in years one and two, and a 
steep 50 percent in year three and beyond. These match levels 
suggest that the grant programs are targeted to already well-
funded applicants or municipalities. Even relatively large 
nonprofits like my own, with many collaborative agreements and 
local providers, would have considerable difficulty raising 
such amounts, and small community-based and faith-based 
organizations are very unlikely to generate such a sizable 
match.
    The authorization of treatment and supportive services in 
the measure do not even mention the rehabilitation, prosthetics 
or other services that may be especially critical to the 
homeless veterans that this very bill is targeted. The list of 
eligible treatment and supportive services should be expanded 
to include the authorization for assistance to chronic homeless 
persons to obtain mainstream benefits such as VA disabilities, 
veterans compensation, veterans healthcare, Medicaid, Medicare, 
Social Security disability insurance, food stamps, temporary 
assistance for needy families, and legal aid.
    Thank you.
    [The prepared statement of Stephanie Buckley can be found 
on page 65 in the appendix.]
    Mr. Renzi. Thank you, Ms. Buckley.
    Mr. Hess.

   STATEMENT OF ROBERT V. HESS, DEPUTY MANAGING DIRECTOR FOR 
SPECIAL NEEDS HOUSING, ADULT SERVICES, CITY OF PHILADELPHIA, PA

    Mr. Hess. Thank you, Mr. Chairman and members of the 
committee. I am appearing before you today to provide testimony 
in support of the proposed H.R. 4057, the Samaritan Initiative. 
I firmly believe that the Samaritan Initiative would be an 
important component that our nation needs in order to achieve 
the goal of ending chronic homelessness.
    For 20 years, people working with and on behalf of people 
experiencing homelessness have seen the same faces on the 
streets and in our shelters. For 20 years, we have been 
tirelessly trying to engage the men and women experiencing 
chronic homelessness. We have made significant strides in this 
endeavor, but we need to do more. By creating a new investment 
source dedicated to funding chronic homeless programs, this 
legislation would enable us to do more of what we already know 
needs to be done and frankly what we already know works. 
Without it, cities like Philadelphia will continue to see the 
same faces on our streets and in our shelters for another 20 
years.
    I want to take just a few minutes this morning to talk 
about the Philadelphia story. In Philadelphia, we were 
fortunate enough to have the strong leadership of Mayor John 
Street recognize years ago that addressing chronic homelessness 
and street sleeping is something we can and should and must do 
as a community to make our city even stronger.
    You see, just a few short years ago, there were 824 
individuals sleeping on the streets of center city 
Philadelphia. Last week, there were 147. What has happened in 
these intervening years has been a focus and a commitment to 
eliminating the need for anyone to sleep on the streets of our 
city that has been unparalleled. We brought tremendous 
resources to bear locally. We have learned a tremendous amount 
about what works and what does not.
    But that is only part of the story. I think one of the more 
interesting parts of the story is that in the first 2 years of 
our efforts, we were able to reduce the street population by 50 
percent. Then we hit kind of a lull. The numbers stayed about 
the same. The intervention strategies that worked so very well 
for the first half or 50 percent of the folks living on our 
streets were not working. So we scoured the country for best 
practices for research to help us focus in on new strategies, 
new tools for our toolbox, if you will, that would allow us to 
assist additional people to move off the streets.
    What we came across were Housing First programs in Los 
Angeles and New York and in other places, with years of 
research behind them, that showed that if you brought people 
into permanent housing with the proper set of supports, you 
really could help them move from the streets into permanent 
housing once and for all, and stop the cycle of folks moving 
through our shelters and onto our streets. People that in some 
cases have been on our streets for 10, 15, 20 years are now 
living in their own apartments doing extraordinarily well.
    That is what this initiative is about. Yes, it is modest. 
Yes, $70 million will not end all of our problems. It is not 
adequate even at that. But it is a major step in the right 
direction, to help us move the remaining folks that are on our 
streets, off of our streets and into their own apartments and 
out of our many, many systems that are extraordinarily 
expensive from hospitals to courts to prisons and back to the 
streets again.
    We know this technology works. We now know how to end the 
need for any individual in this country to sleep on our 
streets. We know the technology. We know how to do it. What we 
have lacked are the resources, the political will and the 
commitment to do it. This bill takes us a step in that 
direction, and for that we are extraordinarily grateful and 
supportive.
    Some will say that we need to put more into families, and 
certainly we do. That is probably a discussion for another bill 
and another day. But from our view, the City of Philadelphia's 
message is, we know what works; we know how to end chronic 
homelessness; we deserve to do it; it is a national disgrace 
that should have been done many years ago. But now given that 
knowledge and the technology, we need the political will and 
the resources to follow in a way that will allow us to move the 
last couple of hundred people off of our streets.
    We look forward to that day and we hope to be the first 
city in this nation to have accomplished that lofty, but 
important goal.
    Thank you, Mr. Chairman.
    [The prepared statement of Robert V. Hess can be found on 
page 71 in the appendix.]
    Mr. Renzi. Mr. Hess, thank you for that story. I appreciate 
it.
    Mr. Mauck.

    STATEMENT OF JAMES MAUCK, PRESIDENT AND CEO OF CATHOLIC 
CHARITIES AND COMMUNITY SERVICES IN THE ARCHDIOCESE OF DENVER, 
 TESTIFYING ON BEHALF OF CATHOLIC CHARITIES USA, VOLUNTEERS OF 
            AMERICA AND LUTHERAN SERVICES IN AMERICA

    Mr. Mauck. Mr. Chairman, Ranking Member Waters, members of 
the subcommittee, my name is Jim Mauck. I am president and CEO 
of Catholic Charities of the Archdiocese of Denver. Today, I am 
testifying on behalf of Catholic Charities USA, Volunteers of 
America and Lutheran Services in America.
    As faith-based providers of housing and supportive 
services, we believe that our national community has a moral 
obligation to end homelessness for all Americans. We thank the 
subcommittee for its attention to this serious problem.
    The focus of my testimony will be the critically important 
needs of homeless families and children. I will begin by 
drawing the committee's attention to four facts that taken 
together have important implications for the Samaritan 
Initiative and for the homeless policy in general.
    Fact one, the population of homeless families is large and 
growing. According to the best data, about one million children 
in families suffer homelessness every year. Recent shelter 
surveys indicate that family homelessness is on the rise.
    Fact two, homelessness has a devastating impact on family 
and children. The effects of homelessness range from the 
increased incidence of acute chronic health problems to high 
rates of failure in school. Less widely appreciated is the 
impact on family stability. When families lack adequate 
housing, child welfare agencies often step in to separate 
children from their parents. Over 10 percent of homeless 
children end up in the foster care system, while 30 percent of 
foster kids could be reunited with their families if their 
housing problems were solved. This intervention is costly. The 
average annual cost of foster care is about $45,000 per family. 
This is roughly four times the cost of providing permanent 
supportive housing.
    Fact three, a substantial percentage of homeless families 
with children endure repeated or long-term homelessness. 
According to the landmark Urban Institute study of homeless 
populations, 21 percent of homeless mothers with children have 
been homeless at least three times, while 39 percent have been 
homeless for periods ranging from 7 months to over 5 years. In 
other words, large numbers of homeless families suffer chronic 
homelessness.
    Fact four, members of these families often suffer from 
domestic violence or sexual abuse, mental illness, chronic 
substance abuse or other disabling conditions. Intensive 
support services must therefore play a critical role in helping 
families to stabilize and make progress toward self-reliance. 
One-third of homeless women have experienced recent domestic 
violence. Among homeless mothers with children, over half 
report mental health or substance abuse problems. In the 
experience of our agencies, families often cycle through 
repeated episodes of homelessness because they have not 
received mental health care, substance abuse treatment, or 
other supportive services that they need.
    These four facts have important implications for the 
Samaritan Initiative. The Samaritan Initiative is part of a new 
model of how supportive services for homeless persons are going 
to be funded, what types of services will be funded, and who 
will be eligible for these services. Most federal homeless 
assistanced is now distributed by HUD through the McKinney 
cometittive grant programs. Yet HUD has announced its intention 
both to reduce McKinney funding for supprtive services and to 
restrict this funding to only four basic types of srevices: 
outreach, case management, lif skills training, and housing 
counseling. The Samaritan Initiative is intended in part to 
meet the expectation that other federal agencies such as HHS 
and VA must replace HUD funding for substance abuse, mental 
health care, and other supportive services for homeless 
persons. Yet the Samaritan Initiative in its current form would 
fund supportive services only for homeless individuals. Our 
concern is that these combined policy changes will effectively 
reduce the availability to homeless families of a wide range of 
critical services.
    Accordingly, we recommend the following revisions to the 
Samaritan Initiative. First expand eligibility to include 
homeless families with children. The Samaritan Initiative 
relies on a definition of a chronically homeless person that 
categorically excludes families with children, even families 
with disabled members who have suffered often repeated and 
extended periods of homelessness. This critical exclusion, 
combined with policies being advanced by HUD, will hinder the 
efforts of homeless service providers to assist many homeless 
families with children in their struggle to achieve stability.
    Two, shorten or eliminate the durational requirement of the 
Samaritan Initiative eligibility to clients who have been 
homeless for at least 1 year or have experienced four episodes 
over a period of 3 years. On both moral and policy grounds, we 
should move people out of homelessness as quickly as possible, 
not to perpetuate it by denying them assistance they need 
simply because they have not been homeless long enough.
    I would conclude with the following. Families are young and 
their children are our future. They come to us with complex 
multiple problems, yet our experience has shown that they can 
be helped. Within families, hope can be rekindled. Children and 
parents can be nurtured and they can build better lives for 
themselves and for their communities. We will all benefit if we 
make it our task to help them.
    Thank you.
    [The prepared statement of James Mauck can be found on page 
88 in the appendix.]
    Mr. Renzi. Mr. Mauck, thank you.
    Mr. Netburn.

STATEMENT OF MITCHELL NETBURN, EXECUTIVE DIRECTOR, LOS ANGELES 
                  HOMELESS SERVICES AUTHORITY

    Mr. Netburn. Good morning, Mr. Chairman, Ranking Member 
Waters, and distinguished members of the Subcommittee on 
Housing and Community Opportunity. My name is Mitchell Netburn. 
I am the executive director of the Los Angeles Homeless 
Services Authority, known as LAHSA. Thank you for the 
invitation to provide testimony.
    LAHSA and the City of Los Angeles readily endorse the 
Samaritan Initiative because it will continue a successful 
collaborative model that will help us reach the national goal 
of ending chronic homelessness. It is estimated that 80,000 
men, women and children are homeless throughout Los Angeles 
County on any given night. Of those, we estimate that at least 
10 percent can be considered chronically homeless.
    In November 2003, Los Angeles began a strategic planning 
process to end homelessness throughout the county in 10 years. 
Led by Supervisor Burke and Mayor Hahn, a total of 10 elected 
officials convened a 60-member blue ribbon panel of community 
leaders to oversee the development of our plan, which will be 
adopted this fall. Los Angeles is committed to ending 
homelessness.
    In the past year-and-a-half, for the first time ever the 
City and County of Los Angeles have contributed over $10 
million to turn a temporary winter shelter program into a year-
round program which serves a high percentage of chronic 
homeless people and is operating at 103 percent capacity. In 
2003, 1,108 clients were placed in transitional housing and 685 
were placed directly in permanent housing. These outcomes 
clearly show that homeless people, even chronically homeless 
people, want a home.
    To reach others, we need new models. Last year, as a 
precursor to the Samaritan Initiative, 11 grants funding such a 
new model were awarded nationally through the Interagency 
Council on Homelessness under the collaborative initiative to 
help end chronic homelessness. Among the grantees was a skid 
row collaborative comprised of 11 agencies. Skid row is located 
in the eastern part of downtown Los Angeles and has the largest 
concentration of street homelessness in the United States. 
Approximately 10,000 people live in this area.
    I am pleased to report that the project has met its goal to 
house 70 percent of its clients within the first 6 months of 
the program. This model works. The promise of this intense 
collaborative can be seen in the experience of participants 
such as Gloria, who is mentally ill. She was engaged by the 
team this spring, who also helped complete the paperwork needed 
to access her Shelter Plus care unit. Despite numerous 
challenges, she was one of the first people housed in this 
program. Gloria sees the on-site psychiatrist and nurse, 
maintains her appointments, and has increased social skills. 
She is even humorous at times. She pays her rent and she has 
gained so much trust that she recently self-reported her first 
experience with drugs to our case manager, who was able to 
deter her from further use.
    Gloria and others like her could not have attained this 
level of success without the consistent and coordinated efforts 
of the collaborative. The chronic homeless initiative, by 
providing funding and requiring local collaboration among 
diverse agencies, ensured that this could be the case. While we 
fully support continuing this model through the Samaritan 
Initiative, I would like to share some concerns with you.
    Our primary concern is that the funding authorized in this 
bill is not sufficient to meet the Administration's goal of 
ending chronic homelessness. The collaborative initiative 
provided a total of $35 million nationally. We are fortunate in 
Los Angeles to have been one of 11 recipients of this funding. 
The Samaritan Initiative proposes to double that amount of 
funding. However, let me make the crude assumption that if Los 
Angeles successfully competes for this new funding, it will 
receive twice the amount it received under the chronic homeless 
initiative, allowing us to help 124 people over 3 years. While 
we would be grateful to have these additional funds, it would 
only allow us to help a fraction of the chronic homeless 
population.
    To truly end chronic homelessness, we have to be realistic 
about the costs. Congress must increase the authorized and 
appropriated levels of funding for the Samaritan Initiative if 
our country is to meet the Administration's goal of ending 
chronic homelessness in 10 years. We also request that the 
Samaritan Initiative ensure that the participating federal 
agencies take to heart the directive to collaborate. The 
initiative sets forth the expectation to collaborate, but 
offers to the maximum extent feasible and appropriate. We 
suggest removing this language.
    As much as we appreciate the Administration's bold 
commitment to end chronic homelessness, we cannot lose sight of 
the significant needs of homeless people who do not meet the 
federal definition of chronic homelessness. We do not believe 
that the Samaritan Initiative's focus on chronic homelessness 
will make it more difficult for us to reach our goal of ending 
all homelessness, provided resources are not diverted to help 
end chronic homelessness.
    For this reason, LAHSA supports additional funding provided 
by the Services to End Long-Term Homelessness Act, the National 
Housing Trust Fund, and adding an additional $150 million to 
the fiscal year 2005 homeless assistance grants budget. Because 
the Housing Choice voucher program is one of the most important 
tools we have for ending homelessness, we strongly oppose the 
Administration's proposed cuts. It is estimated that California 
would lose 35,000 vouchers and the city 5,000.
    Mr. Chairman, your subcommittee came to Los Angeles last 
year to hear public comment on the Administration's proposal to 
convert the Housing Choice program to a block grant. It met 
with widespread opposition and Congress rejected it. We 
respectfully request that Congress reject the Administration's 
proposed cuts.
    In conclusion, housing coupled with supportive services is 
the key to ending chronic homelessness and lays the foundation 
not only for rebuilding individual lives, but for restoring 
vitality to communities that have been neglected. By supporting 
H.R. 4057, the esteemed members of this committee have the 
opportunity to bring the vision of ending chronic homelessness 
in America closer to reality.
    Thank you.
    [The prepared statement of Mitchell Netburn can be found on 
page 106 in the appendix.]
    Mr. Renzi. Thank you, Mr. Netburn.
    Ms. Poppe.

   STATEMENT OF BARBARA POPPE, EXECUTIVE DIRECTOR, COMMUNITY 
        SHELTER BOARD, COLUMBUS AND FRANKLIN COUNTY, OH

    Ms. Poppe. Mr. Chairman, Ranking Member Waters, Congressman 
Tiberi and other distinguished members of this subcommittee, I 
am Barbara Poppe, executive director of the Community Shelter 
Board in Columbus and Franklin County, Ohio.
    As the lead organization charged with our community's plan 
to address and end homelessness, we thank you for the 
opportunity to testify this morning. I bring greetings from 
Columbus Mayor Michael B. Coleman who endorses both the 
Samaritan Initiative and services to end long-term homelessness 
act. My testimony is offered as one of 11 recent grantees under 
President Bush's collaborative initiative to end homelessness, 
the prototype for the Samaritan Initiative Act.
    Our community has found that affordable housing drives 
success at all levels. For the family or individual, it 
represents the foundation for success in other areas: 
employment, health and wellness, education and community 
involvement. For the community, affordable housing drives 
success in improving neighborhoods and business districts. 
Affordable housing is the obvious solution to both chronic and 
short-term homelessness.
    While services are important, we have found that without 
affordable housing, services cannot be successful. While 
integration of mainstream resources is important, without 
housing integration is not successful. While discharge planning 
is important, without access to affordable housing discharge 
plans fail. Success begins by addressing affordable housing 
needs first.
    In 1998, our community's plan to end homelessness was 
issued. Known as Rebuilding Lives, it outlined a better, more 
targeted system that provides both emergency housing for those 
in crisis and supportive housing for those with long-term 
needs. Our goal is to develop 800 units of permanent supportive 
housing. Since July 1999, we have created just over 450 units, 
as well as another 125 or so in development. The units have 
been a mix of new construction, rehab and leasing. Just under 
half of these units receive a Section 8 rent subsidy. One-
quarter are public housing units and the balance are other 
subsidies, including McKinney-Vento.
    Almost one-half of the operating and services costs are 
covered by local public and private funds. Just over half are 
federal funds. The newest Rebuilding Lives project is funded by 
the collaborative initiative. It is known as the Rebuilding 
Lives PACT Team initiative. It serves men and women who have 
experienced chronic homelessness and have serious and 
debilitating illnesses that prevent them from living 
independently. We are developing just over 100 housing units. 
We hope to house over 150, including almost 50 who will be 
veterans. It is a multi-agency partnership providing a multi-
disciplinary team of professionals that is implementing 
evidence-based practices to deliver services.
    To date, we have served 42 individuals and of those, 37 are 
already housed. Most are between the ages of 46 to 61. One-
third are women. Thirty percent are veterans and more than 
three-quarters have at least a high school degree. We have 
documented results from 5 years of Rebuilding Lives 
implementation. There are individual stories like the 81-year-
old man who was recently featured in the Sunday Columbus 
Dispatch for competing in the Senior Olympics. The little-known 
fact is, prior to entering our rebuilding lives supportive 
housing, he had been stuck in the shelter system.
    Another gentleman, Max, is a frequent and notorious 
downtown panhandler and experienced long-term homelessness. 
Today, he is a resident of the Rebuilding Lives supportive 
housing program at the YMCA and he is the greeter at the door, 
welcoming me each morning to my morning workout. I am sure you 
would agree you would rather have Max greet you at the door 
than be on the streets panhandling.
    Other results are our changes in the system of care, such 
as through the collaborative initiative, where we have 
decreased the processing time for an SSI application from more 
than 6 months to just a few weeks. Another example just 
recently occurred when an overnight shelter for homeless men 
closed. Through a coordinated case management team, we 
successfully placed 75 men into market-rate, affordable and 
supportive housing in just a 90-day period.
    Overall program evaluations of our rebuilding lives 
initiative have successfully documented that we are effective 
at ending homelessness. The overall tenancy exceeds a year-and-
a-half, and overall rates of turnover are less than 20 percent 
a year. But in order to achieve the President's stated goal of 
ending homelessness by 2012, we believe that we will need not 
only new HUD and HHS funding to realize the recommendation of 
the Millennial Housing Commission and the President's New 
Freedom Mental Health Commission, which call for the creation 
of 150,000 units of supportive housing, but we also must 
maintain existing programs such as the McKinney-Vento programs, 
as well as the housing voucher program.
    The Samaritan Initiative will help combat chronic 
homelessness. We applaud the initiative's call for new funding. 
The Samaritan Initiative is truly a very positive step in our 
collective goal to end chronic homelessness. The availability 
of new federal housing and services dollars in a single funding 
stream means that local communities can more effectively 
implement a comprehensive strategy to provide services 
coordinated with permanent housing. We also, though, do agree 
that the funding level proposed falls short of the stated goal 
of ending chronic homelessness by 2012.
    We also support the Services to End Long-Term Homelessness 
Act, to be introduced by Representative Burr, continued funding 
for McKinney-Vento programs, and also affordable housing 
production. But most important, I need to call your attention 
to the President's proposal to cut the voucher program. It 
threatens more than half of our Rebuilding Lives units, and 
with deeper cuts proposed through fiscal year 2009, we believe 
this will contradict the Administration's stated goal of ending 
homelessness. Rebuilding Lives offers the best approach to 
addressing chronic homelessness, but without a fully funded 
voucher program, we will lose ground.
    We thank you for the opportunity to testify today.
    [The prepared statement of Barbara Poppe can be found on 
page 111 in the appendix.]
    Mr. Renzi. Thanks, Ms. Poppe.
    Mr. Pucci.

    STATEMENT OF MIKE T. PUCCI, EXECUTIVE DIRECTOR, HOUSING 
         AUTHORITY OF THE CITY OF ALAMEDA, ALAMEDA, CA

    Mr. Pucci. Mr. Chairman, Ranking Member Waters, members of 
the committee, I appreciate the opportunity to testify this 
morning. I would also like to thank Congresswoman Lee for 
inviting me to testify, and also Congressman Stark for his help 
in trying to resolve our Section 8 problems.
    While the primary thrust of this hearing is about the 
Samaritan Initiative and finding adequate means to prevent 
homelessness, I am here to address the recent changes to the 
Section 8 housing choice voucher program and the impact those 
changes are having on our community and Section 8 participants 
who are now at risk of becoming homeless.
    The City of Alameda is a community in the San Francisco Bay 
Area of approximately 72,000 population. This is an expensive 
place to live. Rents here are some of the highest in the 
nation. The low-income members of our community depend upon the 
Section 8 housing choice voucher program to stay in this 
community near friends and family members who provide critical 
support. In addition to the over 1,600 families that we serve 
through the Section 8 program, we have a list of 6,000 
additional families waiting for assistance. HUD's failure to 
pay on an actual cost basis and its failure to fund our 
reserves resulted in the housing authority no longer having 
enough money to pay for 1,625 authorized vouchers. This 
situation has put 108 families at risk of becoming homeless on 
August 1.
    The situation is having a direct impact on these families. 
Recently, Malika Nassirrudin, a young woman who has lost her 
assistance, testified before the Alameda City Council. She 
said, ``I do not want to port out to another county that is 
getting ready to endure the same hardships. The uncertainty is 
physically and mentally draining for me and my family. My son's 
social behavior is declining. He hesitates to make new friends 
in Alameda. He likes it so much. It is hard to lose good 
friends and moving around is not fun.''
    Another young man named Anthony, a single parent of a 
teenaged son, told me this past year it was the first time he 
and his son were able to live together. The Section 8 voucher 
allowed him to get a decent place to live so he was able to get 
custody of his son. This was the best year of both of their 
lives. If he loses his Section 8 voucher, he will lose his 
housing. If he loses his housing, he will lose custody of his 
son. We need to help these families and the other 106 families 
at risk of becoming homeless.
    In 2001, the Bay Area experienced a really tight housing 
market. Rents were increasing faster than the fair market 
rents. Section 8 landlords did not want to accept housing 
vouchers at that time. They would rather get families that were 
working and able to pay the full amount of rent and full amount 
of security deposit. As a result, we were grossly under-leased 
and HUD had recaptured about $4 million in the years 2002 and 
2003.
    By late 2002, though, the market had softened and voucher 
holders started to lease-up. By the end of the fiscal year, the 
Housing Authority was 98 percent leased-up, but HUD had used 
all of our Housing Authority's program reserves to pay for the 
increased leasing costs. Even though we were not over-leased 
for fiscal year 2003, HUD has failed to replenish our reserves, 
even though they are required to do so by their own 
regulations. This has exacerbated the underfunding situation 
and directly impacts these 108 families.
    During this fiscal year, the housing market continued to be 
soft and voucher holders continued to lease-up. Our turnover 
rate declined dramatically, and for the first time we are over-
leased. Despite the softer market, costs for the program 
continue to rise because of increases in utility rates, 
decreases in family income, portability moves to higher-cost 
areas, reasonable accommodations provided to the disabled, and 
several other reasons.
    On May 6, the Housing Authority received a call from the 
HUD San Francisco office telling us that our June 1 housing 
assistance payment check from them would be reduced by 
approximately $800,000. Well, we were faced with having to 
terminate all of our families at that point because we did not 
have the money to pay for housing assistance payments. We had 
been paying for payments using our own reserves throughout the 
fiscal year, and this was the last month of our fiscal year and 
we had no other choice. But our City Council and our Board of 
Commissioners said, well, we do not want any terminations to 
occur. Therefore, use all Housing Authority reserves to pay for 
this shortfall, which we did. As a result, nobody went without 
on June 1.
    However, later in the month of May, we got notice of what 
our funding would be for July 1 under the renewal formula. 
Under the renewal formula, we were facing a $200,000 shortfall. 
Roughly, that meant we had to terminate over 200 families for 
housing assistance. We could not do that either, so we did have 
to send out termination notices. But we were able to make up 
that shortfall. Right now, we are looking at 108 families that 
are going to be terminated as of August 1 in case something is 
not done.
    We are looking to HUD for more funding under the renewal 
formula. We are looking to HUD to replace our reserves so we 
can help these families. But these families need our immediate 
help, and if nothing is done by August 1, these families are 
going to be facing evictions and will be homeless.
    Thank you.
    [The prepared statement of Mike T. Pucci can be found on 
page 137 in the appendix.]
    Mr. Renzi. Thank you, Mr. Pucci.
    Ms. Roman.

  STATEMENT OF NAN ROMAN, PRESIDENT, NATIONAL ALLIANCE TO END 
                          HOMELESSNESS

    Ms. Roman. Mr. Chairman, Ms. Waters and members of the 
subcommittee, on behalf of the board of the National Alliance 
to End Homelessness, I am honored to be here today to testify 
in support of the Samaritan Initiative. In deciding to support 
the Samaritan Initiative, of course, we had to be realistic 
about what it might accomplish. It is not designed to address 
homelessness overall: other bigger programs do that. It does 
not appear, with its limited resources and scope, that passing 
the Samaritan Initiative alone will end chronic homelessness. 
But while recognizing that it is not a silver bullet, we do 
believe that the Samaritan Initiative is a needed and useful 
program that can help communities end chronic homelessness.
    In 2000, the National Alliance to End Homelessness 
announced a pragmatic new template for ending homelessness in 
10 years. One of the things we pointed out was that the 
existing homelessness system was not working very well for one 
particular group of people who were staying homeless for years 
on end. For this group of chronically homeless people, a 
strategy of permanent supportive housing has proven to be very 
effective, and 150,000 units of such housing would be needed, 
we believe, to end chronic homelessness. If spread over 10 
years, this would be a modest 15,000 units per year, a doable 
national goal.
    The cost after 10 years, when all of the housing is in 
place, we estimate to be approximately $1.2 billion per year in 
rent subsidies, with a similar amount for services. Before you 
have a heart attack, much of this cost we think can be offset 
by savings to health, corrections and shelter systems. There 
will indeed be a need for upfront investment and, of course, we 
appreciate that savings in one area does not always necessarily 
translate into resources that are available in another area. 
Nevertheless, it seems to us that ending chronic homelessness 
is something that we can and should do.
    As communities across the country have begun to develop and 
implement their plans with respect to ending chronic 
homelessness, they have faced many challenges. The Samaritan 
Initiative addresses some of these problems. First, by 
providing targeted resources, it encourages communities to take 
on this difficult task. Second, it provides flexible resources, 
allowing communities to utilize the federal funds as gap 
fillers, and it models an important level of federal 
coordination.
    The Samaritan Initiative additionally provides funding for 
many of the activities that will have to be undertaken if 
chronic homelessness is to be ended. It funds outreach. It 
provides capital to acquire housing units. It funds operating 
and rent subsidies and it provides flexible funding for 
services.
    In my written testimony, I have suggested a few changes to 
the Samaritan Initiative which we believe would make it even 
more effective. These involve bringing the amount of service 
funding more in line with the amount that is dedicated to 
housing, and also adjusting the match provisions to better 
leverage mainstream, state and local service dollars. Of 
course, additional steps are going to have to be taken if we 
are going to achieve the Administration's goal of ending 
chronic homelessness in 10 years. In particular, prevention 
measures and additional housing and services resources will 
have to be put into place.
    As other people on this panel have mentioned, one 
critically important additional source of housing subsidy which 
impacts chronic homelessness is the Section 8 voucher program. 
This program is important to ending chronic homelessness for 
three reasons. First, it prevents people from becoming 
chronically homeless by keeping them in housing. Second, 
Section 8 vouchers are being used now in many communities, as 
you have heard, to pay the rent on apartments for chronically 
homeless people. For example, right here in the District, I sit 
as a volunteer on the board of a new nonprofit, Pathways to 
Housing, that in accordance with the city's just-announced plan 
to end chronic homelessness, is using Section 8 vouchers to 
house chronically homeless, chronically mentally ill people. Of 
our first two tenants, one had been on the street for 10 years 
and the other had been on the street for 20 years. So I know 
that Section 8 can end chronic homelessness.
    Finally, the availability of rent subsidies is essential to 
attract capital for the development of supportive housing. For 
example, Fannie Mae has recently committed to provide capital 
financing and pre-development loans for supportive housing to 
chronically homeless people. Reliable rent subsidies like 
Section 8 must be available to access these private funds.
    It is therefore with great alarm that we view the 
Administration's actions and proposals around Section 8. They 
simply are in direct contradiction to their own goal of ending 
chronic homelessness. We urge Congress to fully protect and 
fund the Section 8 program. Further, if you really wanted to 
end chronic homelessness, a relatively simple way to do that 
would be to create a dedicated pool of housing vouchers that 
would be linked to capital to create the balance of the 150,000 
units of permanent supportive housing that we need to end 
chronic homelessness.
    Mr. Chairman and Ms. Waters, the National Alliance to End 
Homelessness supports the Administration's goal of ending 
chronic homelessness in 10 years, although of course not at the 
expense of or to the exclusion of ending homelessness for other 
homeless people. We support the Samaritan Initiative and we 
urge you to authorize it. We extend our gratitude to the 
subcommittee for taking on this difficult task, and we look 
forward to continuing to work with you on the goal of ending 
chronic homelessness.
    [The prepared statement of Nan Roman can be found on page 
142 in the appendix.]
    Mr. Renzi. Ms. Roman, thank you.
    Mr. Whitehead, thanks.

  STATEMENT OF DONALD WHITEHEAD, EXECUTIVE DIRECTOR, NATIONAL 
                   COALITION FOR THE HOMELESS

    Mr. Whitehead. Thank you.
    Chairman Ney, Ranking Member Waters and other distinguished 
members of the committee, it is an honor to be asked to testify 
today on H.R. 4057, the Samaritan Initiative Act of 2004. I 
appreciate the opportunity to be here today with many of my 
esteemed colleagues to offer insight on this proposed 
legislation.
    I am Donald Whitehead, executive director of the National 
Coalition for the Homeless, the nation's oldest and largest 
organization that works exclusively with and on behalf of 
people experiencing homelessness. The National Coalition for 
the Homeless, like many of our partners, is deeply concerned 
about the recent growth of homelessness across America. We are 
pleased that the Interagency Council on Homeless is 
coordinating with other federal agencies to respond to the 
growing needs of homeless individuals. This coordination is 
essential as we work together to end homelessness.
    The number of people experiencing homelessness continues to 
grow unabated and new resources are required to meet the 
demand, but those new resources cannot come at the expense of 
reduction to existing programs. The Samaritan Initiative would 
be funded at the expense of the McKinney-Vento homeless 
assistance program. The President's budget proposal for 
McKinney-Vento is $1.26 billion. It is estimated that $1.3 
billion is required to maintain the programs at their current 
levels.
    Leaving the program at fiscal year 2004 levels still leaves 
us with a huge amount of unmet need. In fiscal year 2004, HUD 
had to turn down $273 million in Continuum of Care requests due 
to lack of funding. Instead of using resources to start new 
programs, we should be concentrating on fully funding the 
programs that already exist. The McKinney-Vento program offers 
greater flexibility in geographic targeting and eligibility of 
participants, while also targeting the chronically homeless 
population. Furthermore, by putting this money in McKinney-
Vento, the administrative costs associated with starting and 
administering a new program can be avoided and more people can 
be served.
    The Samaritan Initiative is only available to people 
experiencing chronic homelessness, and the government 
definition of ``chronically homeless'' applies only to 
unaccompanied homeless individuals with a disability who have 
been continuously homeless for a year or more or who have had 
at least four episodes of homelessness in the past 3 years. 
While this is an important population to serve, this definition 
excludes families who have experienced long-term homelessness, 
and families are the largest-growing sector of the homeless 
population. Families now represent 40 percent of the homeless 
population. Even families whose head of household is disabled 
are excluded from the Samaritan Initiative.
    This targeting issue is one I feel very strongly about, for 
both personal and professional reasons. Ten years ago, I was 
forced to utilize the services provided by the McKinney-Vento 
program. Had my ability to access those services been limited 
to the narrow definition of ``chronically homeless'' in this 
legislation, I would certainly not be here testifying today and 
there is a very high probability that I would in fact not be 
alive because I would not have qualified for these services.
    Furthermore, we object to the codification of this 
definition of ``chronic homelessness.'' There is widespread 
disagreement among practitioners about the definition of 
``chronic homelessness'' as well as the ethics and practicality 
of using this definition to deliver services. Congress should 
not put this definition into statute.
    We are also concerned that this initiative on its own does 
very little for its target population: $10 million in the 
Department of Health and Human Services to be distributed 
across 50 states for people with complex health and mental 
health needs is woefully insufficient.
    In addition, this program provides only 3-year grants 
followed by the option to reapply for another 3 years of 
funding at half the amount. The people who will be served by 
this initiative have, by definition, severe mental health and 
physical disabilities. In order to remain in permanent housing, 
they will likely need supportive services for the rest of their 
lives. If funding is cut off, they are at risk of becoming 
homeless again.
    We applaud the drafters and sponsors of this bill for their 
recognition that both supportive services and affordable 
housing are necessary to end homelessness, but we question the 
effectiveness of earmarking $50 million for affordable housing 
production, while at the same time cutting $1.6 billion from 
the Section 8 housing voucher program. As long as the Section 8 
program is in crisis, we cannot end homelessness in this 
country.
    In conclusion, any initiative to end homelessness or 
chronic homelessness in this country must be forward-thinking 
and comprehensive and it must include the production of large 
amounts of affordable housing. There are two such initiatives 
in the House of Representatives right now, both of which have 
more sponsors than H.R. 4507. These are the National Housing 
Trust Fund, H.R. 1102, which would provide funding for 1.5 
million units of affordable housing over the next 10 years, and 
the Bringing America Home Act, H.R. 2897, which is a 
comprehensive bill to end homelessness in this country. The 
Bringing America Home Act includes housing, healthcare, 
economic justice, and civil rights provisions. A list of 
endorsers is attached to my testimony and we ask that it be 
entered in the record.
    We appreciate the recognition by this committee that ending 
homelessness must be a priority in this country, but the 
Samaritan Initiative in its present form is not an effective 
way to accomplish that goal.
    Thank you for the opportunity to testify today.
    [The prepared statement of Donald Whitehead can be found on 
page 150 in the appendix.]
    Mr. Renzi. Thank you for your insights.
    Before we move to questions, I want to move to our ranking 
member, Mrs. Waters of California.
    Ms. Waters. Thank you very much, Chairman Renzi. I thank 
you for the introduction of the legislation and your chairing 
of this hearing today.
    This is a very important hearing. I suppose we are all here 
to review the homelessness issues, including those that are 
particular to the chronically homeless. As you have heard 
today, there are approximately 80,000 people who are homeless 
each night in Los Angeles. Many of them are concentrated in 
Central and South-Central Los Angeles. A hugely 
disproportionate number of these homeless are African American. 
A larger segment of the homeless than in the general population 
is disabled.
    There has also been an explosion in the number of families 
with children experiencing homelessness. Simply put, in Los 
Angeles and many communities throughout America, we have a 
crisis and the problems are getting worse.
    Chairman Renzi, there are several technical questions 
raised by this legislation. I am pleased that we are covering 
some of those questions today, especially the issue of whether 
the definition of ``chronically homeless person'' that is used 
in the Samaritan Initiative improperly excludes families with 
children, even those families with disabled members.
    I am pleased that some of our witnesses are exploring 
whether we need to expand the definition of homelessness to 
reach unstable housing situations where families with children 
are living doubled-up with extended family members or others 
who are willing to provide them with shelter temporarily. I, 
too, believe that we should be using the broader definition of 
homelessness employed by the U.S. Department of Education so 
that families lacking fixed, regular or otherwise adequate 
housing would be eligible for programs even if they are not 
living on the street or in a shelter.
    Also I believe that the services funding authorized by this 
bill is grossly inadequate to meet the needs of those who would 
be covered by the initiative. The services funding should be 
substantially increased by at least an additional $45 million 
as the U.S. Conference of Mayors has requested.
    Mr. Renzi, as important as these technical questions are, I 
submit that there are far larger policy questions that we must 
address. Respectfully, I submit that there is somewhat of an 
Alice in Wonderland quality to the Administration's discussion 
of these issues. The Administration appears to believe that the 
issue of homelessness can be considered in isolation from the 
broader issues of poverty and affordable housing production.
    Yet nothing could be further from the truth. How can anyone 
seriously believe that we can achieve the worthy objectives of 
this initiative by authorizing a total of $70 million in 
funding, at the same time that the Administration is proposing 
cuts of $1.6 billion in the Section 8 voucher program, cuts 
that if implemented would result in a reduction of 250,000 
Section 8 vouchers.
    The impact of the cuts to the Section 8 program, if 
implemented, surely would result in a tremendous increase in 
homelessness and make it all the more difficult to achieve the 
Administration's professed goal of ending homelessness in 10 
years. It is clear that the Administration's Section 8 policies 
are dislocating households and forcing many public housing 
authorities to raise rents and lower subsidies to needy 
seniors, persons with disabilities, and families with children.
    The funding level proposed by the Bush Administration will 
result in 250,000 vouchers being funded if housing authorities 
choose to maintain the current level of subsidy for those 
vouchers that they do maintain. If housing authorities choose 
instead to maintain the same number of vouchers currently 
authorized nationally, the average Section 8 tenant to rent 
would have to rise by an average of about $850 per year. In Los 
Angeles, the City Housing Authority would have to issue 5,336 
fewer vouchers and the County Housing Authority would have to 
issue 2,457 fewer vouchers if they choose to make up the 
funding shortfall by reducing the number of vouchers that they 
fund.
    If they issue the same number of vouchers, the City of Los 
Angeles would have to raise the average tenant's rent by $933 
per year and the County Housing Authority would have to raise 
the average tenant's rent by $977 per year in order to absorb 
the impact of the Bush Administration's proposed funding level.
    Mr. Renzi, the National Low Income Housing Coalition has 
prepared an impact matrix that explains how public housing 
authorities around the country are responding to the 
Administration's destructive Section 8 housing policies, 
including HUD's April 22, 2004 notice announcing changes to 
HUD's Section 8 payment policies. I believe this document is 
crucial to obtaining a realistic understanding of the state of 
affordable housing in this country. I ask that it be made a 
part of the record of this hearing.
    Mr. Renzi, you do not get close to your destination by 
taking one step forward and 10 steps back. I know that is not 
you, because you are trying to move this process forward, but I 
have to be very honest with you, the Samaritan Initiative 
cannot be divorced from the broader issues of affordable 
housing policy. Most housing experts believe that an 
incremental 150,000 housing units will be required in the next 
10 years to end chronic homelessness for those who are 
currently experiencing it. Yet, I see no evidence that the 
Administration has any plan to produce the units required.
    During the questioning period, I want to find out, and I 
will be asking Mr. Mangano, to provide the details and explain 
just how the Administration proposes to create the 150,000 
incremental housing units that would be required to address the 
supportive housing shortfall for the chronically homeless. To 
me, the numbers just do not add up.
    Mr. Chairman, I know that an awful lot of work is taking 
place in Los Angeles and many other communities around the 
country to develop, with community input, 10-year plans to end 
homelessness, a project that Mr. Mangano is championing. I 
certainly recognize the value of a planning process and 
community input. Yet if our goal truly is to end homelessness, 
we must be prepared to devote the resources required to make 
such plans a reality. The plans are a means to an end, not an 
end in themselves.
    If we end up producing carefully considered, well-developed 
plans that simply gather dust on a shelf because we are 
unwilling to devote the resources required to implement them, 
then we need to ask why we went to the trouble of creating the 
plans in the first place. In my view, we must not offer simple 
solutions. We need to fully fund the Section 8 voucher program 
and support affordable housing initiatives like the National 
Affordable Housing Trust that can produce the supportive 
housing required to address homelessness.
    I look forward to the testimony of our witnesses today. 
Again, I know, Mr. Chairman, that you are very much concerned, 
as I have witnessed the work that you are doing in your own 
district, not only with the homeless but with the Indian 
population, and have a great appreciation for that. I think 
that you are on the right track, but we have a long way to go.
    Thank you very much.
    Mr. Renzi. I thank the gentlelady and I appreciate her 
comments and agree with a lot of her insights.
    We are going to move to questions now. We will alternate 
back and forth. Each member has 5 minutes and we will start 
with Mr. Tiberi.
    Mr. Tiberi. Thank you, Mr. Chairman.
    Ms. Poppe, thank you for your testimony. Can you expand a 
little bit more on what you experienced when you first took the 
helm of the Community Shelter Board in 1995? What I mean by 
that, when I was in the legislature starting in 1992 in 
Columbus, Ohio, the in-vogue way to deal with homelessness was 
just to warehouse the homeless in Columbus. Through your 
leadership on the Community Shelter Board, you obviously have a 
much different approach. I have toured your facilities and seen 
that approach. Can you explain how that transition occurred in 
Columbus and how that is occurring nationally, and what we can 
do here in addition to this legislation to help you at the 
local level?
    Ms. Poppe. Yes, thank you for your kind words and the 
question.
    In Columbus and Franklin County, we were facing a situation 
where downtown economic development was likely to displace two 
major shelters serving homeless men, as well as areas along the 
riverfront where homeless folks were congregating and sleeping 
outdoors. So we received a charge from our Mayor, along with 
County Commissioners and the United Way of Central Ohio which 
asked us to undertake a study to see if there were different 
ways to approach homelessness, and specifically to address the 
needs of those persons who would be impacted by the 
displacement of those facilities and the reconstruction.
    That resulted in a period of intensive research where we 
looked at our homeless management information system data, 
which went back to the early 1990s, along with best practice 
research. Together, we formed a plan that included input from 
our providers. It included input from those who had been 
consumers. It also had a strong constituency within our 
neighborhoods who were very concerned about homeless people on 
the street, but also did not want to see facilities developed 
in their neighborhood, kind of the ``not in my backyard'' 
approach
    We also had the support of the downtown business community 
and all of our elected officials. What that resulted in was the 
community came together across all party lines, across all ways 
of doing things, and committed on a path to improve emergency 
services. So we developed three new emergency facilities which 
replaced the two outdated facilities. We had a better system to 
deal with those who were publicly inebriated. We increased our 
outreach and intake processes.
    But the centerpiece of it was the development of permanent 
supportive housing. I can tell you that having worked in 
Columbus for all these years, there are people that I was told 
could not be housed. They simply wanted to be homeless and this 
was their lifestyle choice. It is no great surprise, but they 
are today housed and successfully in supportive housing. They 
are working. They are dealing with their mental health issues.
    So it has become a real point of pride for our community, 
whether it is our Commissioners who are very invested in the 
success of it, or our Mayor or City Council. It has become a 
point of pride in our community. We have also successfully 
dealt with the issue of NIMBY and have developed good neighbor 
agreements that help assure projects operate successfully.
    It has very, very much changed the way we address 
homelessness in our community and I believe it is a model for 
other communities that can be adopted and addressed. We were 
able to do this because we had strong local support and local 
investment of city and county tax revenue, as well as the 
private sector support, and then strong support from the 
federal government through the various federal housing 
programs.
    Mr. Tiberi. What can we do? The Samaritan Initiative is a 
pilot program. What else can we do, in your eyes, to help the 
Columbuses and Franklin Counties of America?
    Ms. Poppe. I certainly believe the Samaritan Initiative is 
very good, and a first step in dealing with chronic 
homelessness. Beyond that, the single most important issue to 
us really is how we deal with the voucher program and 
preserving and expanding that. It is incredibly successful at 
addressing chronic homelessness, whether we use them as tenant-
based or attached to actual projects like the Commons Grant, 
which is our newest downtown supportive housing development.
    Beyond that, we do need resources for services to help 
stabilize families as well as individuals, and we do need to 
all work together and put aside some of our outdated notions 
about what an emergency shelter is or what a transitional 
housing program is. There are many things we have learned in 
the last 20 years, and some of those things we do need to cast 
aside and to move forward in a new, more effective and targeted 
way.
    Mr. Tiberi. You mentioned the voucher program. Can you 
comment to me, in your opinion, there is an issue of the cost 
of the voucher program. In dealing with the issue of 
homelessness and chronic homelessness, do you believe that the 
federal government can do a better job? What I mean by that is, 
invest federal dollars in the voucher program in a way that we 
can long-term save dollars by getting people to be productive 
and self-sufficient through what you have done with supportive 
services?
    Ms. Poppe. We have seen that the voucher program, by 
providing a rent subsidy, enables us to take in individuals who 
have no income at the time of intake into supportive housing. 
In fact, 85 percent of the folks have no income. What they are 
able to do is by stabilizing their lives, they are over time 
able to increase that income. We have had folks who have moved 
up to being able to fully pay their rent. There are other 
individuals, frankly though, whose serious mental illness is 
such that full-time work is not really going to be something 
that they can do, but it is at a lower cost than was long-term 
institutionalization or their excess use of emergency rooms and 
psychiatric hospitals.
    I do believe there probably are some administrative savings 
possible within the voucher program. I do not believe those 
administrative savings will amount to $1.6 billion, such that 
we can save all of the existing units. We are very concerned 
that the program moves forward and we do not lose ground, but 
we also need to expand the supply of affordable housing.
    Mr. Tiberi. Thank you. Mr. Chairman, just one final point. 
Ms. Poppe, you do believe, though, that with the proper use of 
the voucher program that we can actually, not everybody, there 
is no question about that, but I have seen it in Columbus where 
someone will be homeless, and rather than just warehousing 
them, providing them with supportive services and the housing, 
that potentially, in fact it has happened, people can become 
self-sufficient.
    Ms. Poppe. Absolutely. We do see folks become self-
sufficient. We do see about 10 percent of supportive housing 
residents actually graduate from the program into a larger 
unit. Often it is because they have a job and they want a 
better apartment near their job or they are reunifying with 
their family. So success does occur even with those who are the 
most disadvantaged and difficult to otherwise serve.
    Mr. Tiberi. Thank you.
    Mr. Renzi. Thank you, Mr. Tiberi.
    I would like to recognize the Ranking Member from our full 
committee, Mr. Frank of Massachusetts.
    Mr. Frank. I thank the Chairman.
    My question is for Ms. Roman. I thought you made the point 
very well in your testimony when you said one critically 
important additional source of housing subsidy impacting 
chronic homelessness is the Section 8 voucher program. The 
program seems to me very well structured, except that it misses 
an important semantic point. ``Homeless'' means people do not 
have homes.
    Now, we should also be clear here, and I am glad to have 
this chance to underline this, we are talking about homes, not 
homeownership. Homeownership is a good thing, but for many of 
the poorest people in this country most of the time they will 
not be able to own homes. A policy that looks only at ownership 
and not at home occupancy is flawed.
    Now, for low-income people it seems to me the Section 8 
program is very important. Here is my question. If we were to 
adopt this bill today and it went into effect, but the current 
policy regarding Section 8 vouchers stayed the same, how much 
of a dent would we be making in homelessness?
    Ms. Roman. We would probably have more homeless people if 
the Section 8 voucher policies that are proposed went into 
effect. It appears to us that the Samaritan Initiative would 
support, it runs over 3 years, so it would support about 2,500 
units a year. If it kept being appropriated at the level that 
is requested, it could ultimately support a maximum of 7,500 
units per year. So we would stand to have a much greater net 
loss if we lose the vouchers that we are anticipated to lose, 
as other people on the panel have described.
    Mr. Frank. Let me ask another question of everybody here. 
One of the arguments we have seen, and I will address this to 
Mr. Mangano later because he talked approvingly of the 
Administration's proposal to restructure Section 8. As 
Secretary Jackson has said, the problem is the Section 8 
program is costing us too much money, partly because the people 
we are helping are too poor. He points out correctly that you 
pay 30 percent of your income for Section 8, and people with 
very little income are thus more expensive than people without 
because there is a bigger gap to be made up.
    If we were to act on Secretary Jackson's proposal that we 
re-target Section 8 and try to hit a higher income level, 
obviously still below the 80 percent, how would that interact 
with this program? Let me go down the list here. Let me start 
on the left, ma'am. Do you favor Secretary Jackson's argument 
that we should reorient the targeting of Section 8 to get a 
higher income group of people?
    Ms. Buckley. No, especially not in rural Arizona. That 
would be missing probably 85 percent of the veteran population 
that my project serves. They just do not meet the threshold 
that he has set forth, so it would increase the homelessness in 
Arizona.
    Mr. Frank. Okay. Thank you. Next?
    Mr. Hess. It would be problematic. It would certainly be 
very challenging. It is already challenging to find an adequate 
number of affordable housing units for people at the lowest 
income ranges. We see people in our shelter system that 
typically are 15 percent of mean and below, and it is almost 
impossible to move them into affordable housing without 
subsidy. So it would be a movement in the wrong direction.
    Mr. Frank. Next?
    Mr. Mauck. The elimination of public housing in many 
communities has really put an additional stress on Section 8 as 
we know it. The change in the income levels merely exacerbates 
the problem. We have not really raised people's income at the 
lowest end that are in fact enjoying the benefits of Section 8 
housing. So I think you exacerbate the problem and ultimately 
it will create more homelessness.
    Mr. Frank. Thank you. Let me just interject here, and I am 
glad you mentioned the public housing situation. I am not happy 
that we have the situation. I am glad you mentioned it. One of 
the things Secretary Jackson pointed out was that the Section 8 
program has now, to his dismay, become a much larger percentage 
of the overall HUD budget. But it has become a larger 
percentage of the HUD budget partly because it has grown, but 
partly because almost everything else has shrunk. Section 8 is 
a larger part of the HUD budget because public housing and 
other construction programs are not there. So I think that is 
exactly right. We have put a greater burden on Section 8 at the 
same time we lament the fact that it is growing.
    Yes, sir, next?
    Mr. Netburn. I concur that it would definitely create more 
homeless people, particularly in Southern California, 
especially in Los Angeles. There is an extremely low vacancy 
rate. Housing costs are extremely high. It is challenging 
enough for us as it is now to house all the people that need 
housing. With the loss of this program, I am really not sure 
what we would do with those very low-income people who would 
not be eligible for the Section 8 program.
    Mr. Frank. Yes?
    Ms. Poppe. We would absolutely see homelessness increase in 
Columbus and Franklin County. Just to give a perspective, the 
typical homeless family has less than $200 a month that they 
can afford to pay for housing, and the typical two-bedroom 
apartment costs over $650. So we are already facing a $450 a 
month gap.
    Mr. Frank. Mr. Chairman, I would ask unanimous consent just 
to let the last three witnesses answer, if that is okay.
    Mr. Pucci. Mr. Frank, I have been administering the Section 
8 program for about 27 years, back in the days when we could 
assist families up to 80 percent of median income. I believe 
that if we were to go back to that that it would seriously 
impact those folks who are below 35 percent of median income. 
It would increase homelessness. If we are not going to be 
assisting them, who else is?
    Mr. Frank. Ms. Roman?
    Ms. Roman. We have homeless people because people cannot 
afford housing. So if we remove the primary subsidy program for 
low-income people to be stable in housing, we will definitely 
have more people homeless.
    Mr. Frank. Mr. Whitehead?
    Mr. Whitehead. The chronically homeless initiative is based 
on the idea that people can move quickly through the system. If 
the Section 8 housing program is not funded at an adequate 
level, it will definitely increase the number of homeless 
people. We have already started to see some effects in programs 
that have partnered with their local housing authority. People 
are already starting to not be able to utilize vouchers.
    Mr. Frank. Thank you. Mr. Chairman, I will summarize. I 
just want to reemphasize. I am not making this up. It is a 
repeated theme of Secretary Jackson that the way to fix the 
Section 8 program is to help people with higher income. I think 
that the contrast between that and a professed concern for the 
homeless is so glaring that I appreciated the chance to be able 
to talk about it.
    Thank you, Mr. Chairman.
    Mr. Renzi. Thank you, Mr. Frank.
    We have been joined by the Chairman of our Subcommittee on 
Housing, Mr. Ney. I want to first of all thank you for allowing 
me to chair and also for bringing forth the legislation. I 
recognize you.
    Chairman Ney. Thanks for the job you are doing, and the job 
you are doing today chairing this, and also the legislation you 
have worked on. I know it is appreciated in all parts of the 
country.
    I have a couple of questions, for whoever wants to answer 
it. What about de-institutionalization? I am talking about the 
State of Ohio because I was a State legislator. We were 
involved in that. I am not saying institutionalization is good 
as a wide brush, but the process of de-institutionalization in 
the United States, with persons that have some form of a 
problem when it comes to some form of mental illness, is that 
still making the situation worse, to create homelessness?
    Ms. Poppe. I can speak first from the Ohio perspective, 
which is that because we have been so many years into the 
process of de-institutionalization, what we are seeing is the 
after-effect of that, which is that there are many, many 
individuals who are homeless and who have never had the chance 
to be institutionalized because it happened so long ago. But 
they do not have adequate community services, nor do they have 
adequate housing.
    We are still in the process of further downsizing our 
psychiatric hospitals. One of our newest rebuilding lives 
projects is actually targeting those who have been 
institutionalized on a step-down basis. What we are able to see 
is that they are able to over time be sufficiently housed in a 
pretty low-demand situation, in permanent supportive housing.
    So very much supportive housing is a really cost-effective 
alternative to institutionalization. It only costs us about 
$14,500 a year to house someone in supportive housing. I know 
that in-patient psychiatric hospitalization exceeds costs of 
$80,000 to $90,000 a year. But we simply have not had that 
investment of those dollars translate into affordable housing 
with community services.
    Chairman Ney. You get a lot of ``not in my backyard,'' too, 
as you know, dealing with this issue.
    Ms. Poppe. Absolutely. I think there is a lot of fear about 
folks who are either poor or mentally ill, but we have been 
able to overcome that in Columbus by working with neighbors to 
create covenants around good neighbor agreements. So it is 
still possible. It does require local political will to 
overcome those neighbors' objections and it requires good 
quality operations to make sure we fulfill our promises.
    Chairman Ney. Of course, I am familiar from being in the 
legislature about 14 years there and the work you have done, a 
lot of you, and Bill Faith and a lot of good work that has been 
done.
    I had a question for Mr. Netburn. I think in your testimony 
you mentioned that the early administration of the 
collaborative grant was complicated. Can you expand on that a 
little bit?
    Mr. Netburn. Yes, the original request, the notice of 
funding availability that was issued was really several 
different applications that were just in one envelop, so to 
speak. There was a really short time frame, and it was 
incredibly challenging for the providers who put together the 
skid row collaborative, to respond to that request. 
Additionally, in the early part of the grant, particularly the 
administration of it, there were different start dates to the 
different funding streams; different reporting rules.
    The original concept was really great, of putting funding 
into one single application with the idea that it would be 
administered singly, but the initial administration was clearly 
not like that. I know they have been working hard in Los 
Angeles to make it a lot smoother. I do hear that it is 
smoother, but it was extremely challenging in the beginning.
    Needless to say, dealing with this population was very 
challenging. Where you really want to focus your efforts is on 
helping the chronic homeless people get into housing and stay 
there, not with the oversight of the program. Not to say there 
should not be clear oversight and accountability, but I have 
been doing government work for about 20 years and it was 
probably about the most complicated application I have ever 
seen.
    Fortunately, as I said, that has somewhat been worked out. 
I think the new legislation does address that. Just given that 
early experience, we wanted to make sure that those federal 
agencies involved in this matter really take it to heart and 
collaborate and try to make it as easy as possible, ensuring 
the proper oversight.
    Chairman Ney. Thank you.
    I have run out of time, but I just had a generic quick 
question, Mr. Chairman. It is also good to be here today with 
our Ranking Member, Ms. Waters. It deals with rural versus 
urban homelessness. Any recent stats on it? Homelessness is 
homelessness, but obviously in the urban centers it just 
statistically has to be a lot more.
    Ms. Poppe. I think the rate is higher in urban areas than 
rural areas generally in homelessness per capita.
    Ms. Buckley. I know that in rural Arizona, just in two 
counties, we have over 2,000 homeless veterans, and that is 
just of the veteran population. I think in the rural areas, the 
problem that you have is they are not so visible. You have them 
in the desert areas, in the forests. There are not as many 
resources such as emergency shelters, transitional programs 
where you can get headcounts.
    So it is a big issue in rural areas as well. There are not 
as many opportunities for nonprofits and faith-based 
organizations to set up programs to help the homeless because 
there is not as much funding and everything like that.
    Chairman Ney. We have homelessness, but also like down in 
Blair, Ohio at Salvation Army, you will see a lot of people 
passing through from other places also, and they will come into 
the small areas to try and get some help.
    My time has expired.
    Mr. Renzi. Mr. Whitehead?
    Mr. Whitehead. I was just going to echo that, that there 
are definitely fewer resources to address the problem of 
homelessness in rural communities. We have also found in some 
rural communities like Iowa, the population is primarily 
families.
    Chairman Ney. Yes. Thank you, Mr. Chairman.
    Mr. Netburn. Could I just add?
    Mr. Renzi. Yes, sir.
    Mr. Netburn. I come from the second-largest city in 
America. I know from speaking to many of the providers in rural 
areas, that they feel that particularly in the colder rural 
areas that their clients may not necessarily meet the 
definition of ``chronic homelessness'' because in those areas 
people will take people in, offer them housing particularly 
during the cold months. So they feel disadvantaged.
    Mr. Renzi. Mr. Chairman, thank you for the questions.
    We move to our Ranking Member, Ms. Waters.
    Ms. Waters. Thank you very much. I would like to just take 
this opportunity to thank Chairman Ney. As was mentioned 
earlier, he came to Los Angeles when we first opened the 
discussion on Section 8. We had tremendous turnout and a lot of 
support from the service providers and people in this community 
who are working at this every day, landlords, everybody who 
sent the word back here to Congress, please do not cut Section 
8. So we all are warned that it would lead to, and quickly, to 
homelessness. I would like to thank you, Chairman Ney, and I 
would like to thank all of those who participated.
    Let me talk about Los Angeles and ask some questions about 
Los Angeles for a minute. I do not know if other members of 
Congress are having this problem, but we have a growing 
confrontation between downtown and South Los Angeles. Something 
happened in this service authority that gave Sheriff Baca some 
authority to do something. I am not sure as of this moment what 
it is. Many of our organizations got word, and they defined it 
as Sheriff Baca had the mandate from the authority to get rid 
of the homelessness downtown because of the proposed new 
developments downtown, and ship them to South Los Angeles with 
some plan to have temporary shelters under freeways and some 
other places. As you know, the community exploded.
    I got Sheriff Baca out to a meeting where 900 people showed 
up at Crenshaw Christian Center, and of course they sent the 
word back in no uncertain terms that there should not be a 
shifting of homeless population. There is a significant amount 
of homelessness in South Los Angeles already, and everybody 
agrees that every community must do its share of bearing the 
responsibility for the homelessness.
    Can you tell me if the Authority has a plan to shift the 
homeless from downtown? I wish other members of Congress would 
tell me if they have these kinds of plans going on the area, if 
something is going on and we are now in confrontation about the 
homeless. Do you know anything about this, Mr. Netburn?
    Mr. Netburn. I can state emphatically we do not plan on 
shifting resources or housing to South-Central or other areas. 
What we have seen over time is a concentration of services 
within the skid row area. It was a conscious policy of the City 
of Los Angeles many years about, about 20 years ago, to create, 
in effect, a skid row. It has developed in a chicken and egg 
scenario. What I mean by that is, homeless people not only 
throughout the City of Los Angeles, but really throughout the 
county and sometimes from other areas of the country know of 
the concentration of services in skid row and come there. Those 
providers have said, we need the funds because we have the most 
number of people. The reason they have the most number of 
people is because they got the funds years ago and they have 
the services. So it has become a self-perpetuating situation.
    So what the Los Angeles Homeless Services Authority has 
said is that we are not going to de-fund projects in that area, 
but as much as possible we want to have new projects in other 
areas of the city and the county. Our estimates are that in 
skid row there are about four homeless people for every 
available bed. In South-Central, our estimates are that there 
are 44 people for every available bed. So what we want to try 
to do is eliminate that disparity so that people can be served 
in their own areas.
    One of the misnomers about homeless people is that people 
think they have come from some other area. Our experience is 
that they are neighbors; that they live in the area where they 
have gone to high school and the like, and that they are going 
to be most successful if they are receiving services and 
housing in their neighborhood with the support services.
    So we are not looking to shift the funding. What we are 
looking to do is to more equitably distribute the funding and 
the housing and the services so that people in the other areas 
have access in the areas where they live.
    Ms. Waters. If I may, Mr. Chairman, on the Homeless 
Authority, how many people serve on the Authority Oversight 
Board?
    Mr. Netburn. There are a total of 10 members. The Mayor 
appoints five, with the approval of the City Council, and each 
of the five County Supervisors has one appointee.
    Ms. Waters. Well, I am finding that the problems of the 
homelessness is landing on the doorsteps of the members of 
Congress. On Section 8, they are beating our doors down. I have 
had three meetings already, working with the Housing Authority 
and others. Just as the question of whatever Sheriff Baca was 
doing came to light, then I was bombarded with the neighborhood 
councils and all who came to me.
    In the creation of the Authority, was any thought given to 
asking the members of Congress whether or not they wanted to 
participate in any way? Do you know?
    Mr. Netburn. The creation pre-dates me. It was created in 
1993. It really arose out of a lawsuit between the City and the 
County of Los Angeles. They agreed to settle that lawsuit by 
creating the Authority. State law allows two jurisdictions such 
as the city and the county to enter into a formal agreement. So 
those were the parties to the agreement. I have not heard of 
any specific discussion about that, but I certainly can check 
and get back to your office on that.
    I do want to state for the record, because you have 
mentioned Sheriff Baca, who has been a real champion of 
homeless issues and been very forceful. His actions were not at 
the direction of the Los Angeles Homeless Services Authority 
nor did we endorse those. We do seek and applaud any leadership 
we receive on homeless issues and funding and the siting of 
facilities, but his action in that specific area was 
independent from LAHSA.
    Ms. Waters. I thank him, and he is a friend. I know that he 
is well-meaning. We just need to understand the relationship to 
the Authority and what is taking place. What I am going to do 
is ask this committee to come to Los Angeles one more time. I 
do not know if it will, but maybe some of the members will. We 
want you to walk us through the homeless network. I, 
surprisingly, have not been invited to do that. I think I am 
going to take more responsibility in figuring out what is 
happening in Los Angeles, and I want my colleagues to go along 
with me.
    Chairman Ney. Would the gentlelady yield? I think it would 
be a good idea to go to Los Angeles. I have been there, of 
course, on other issues, but I think to view first-hand 
homeless problems in that and any other cities I think would be 
excellent.
    Mr. Netburn. Let me take this opportunity to publicly 
invite all of you. We would be truly honored to show you the 
situation in Los Angeles, which Philip Mangano can talk about. 
We are not proud of this fact, but certainly the skid row area 
and other parts of the city and county have a street population 
unlike any other city in the entire country.
    Ms. Waters. When we come, we do not want anybody to clean 
it up. I want my colleagues to see exactly what it is.
    Mr. Netburn. We do not give a cleaned-up tour.
    Ms. Waters. Okay. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Renzi. I share the commitment, and I look forward to 
also coming and visiting and seeing Los Angeles.
    The gentlelady from Pennsylvania, Ms. Hart.
    Ms. Hart. I have a quick question. Thank you, Mr. Chairman.
    It really runs along the same lines, but it is much more 
general in nature. I have had and continue to have regular 
meetings with housing advocates in the six counties I 
represent, but especially in Allegheny County, which is a major 
center of my district. Though they are very happy with some of 
the programs that we provide, they always tell me that they 
will have someone who they would term as chronically homeless 
who seems to fit everything, but then there is one criterion 
that always seems to prevent them from actually finding a 
place, not always but often prevents them from finding a place.
    So my question is actually for the executive directors of 
the housing authorities or for the homeless authorities. I 
think there are three of you on the panel, Columbus, LA, and 
Alameda, the three of you. Are there things that we need to do 
aside from a comprehensive outline of the program, that are 
more specific? Do you find, for example, that there are certain 
conditions that seem to be all the time eliminating factors for 
a person that you are trying to help? Or is this something that 
maybe I need to get more details from my folks? They have given 
me some, and we have gone back to HUD and said, why do you do 
this; why do you do that. Are there things that you find that 
are chronic issues that we need to address?
    Ms. Poppe. Speaking from the Columbus perspective, as well 
as we have heard from those around the State of Ohio, one of 
the current challenges we are seeing is that an increasing 
number of folks who find themselves homeless, whether it is 
families with children or single adults or those who have 
records of incarceration, and those records of incarceration 
prevent them from being eligible for any of the federal housing 
programs through public housing or Section 8. I would say that 
is the number one issue, is how to deal with housing for ex-
offenders.
    We work very closely with our State of Ohio. They are very 
interested in doing improved discharge planning, but simply 
there are not resources available to house that population, so 
they end up un-housed. Within the population of ex-offenders, 
the most difficult to house are those folks who have been 
labeled as sexual predator and are subject to community 
notification. Many of those individuals are effectively 
completely un-housable and present the greatest challenge.
    The other issue that we consistently face is that folks who 
have been homeless have very bad credit records. Increasingly, 
private landlords as well as the Public Housing Authority will 
not accept folks who have bad credit records. So there is not a 
process by which they can resolve those prior debts. They may 
be education debts; they may be health debts. Those credit 
issues become a rental factor. They are not embedded in any of 
the federal laws, but because the housing authorities, as well 
as the private landlords, are looking for the best tenants, and 
there are more people who need housing than there is housing 
available, that is the additional factor that can often make 
families in particular un-housable.
    Mr. Pucci. In Alameda, we have a similar example. We were 
trying to do a project-based assistance program using Section 8 
vouchers with a homeless collaborative. They wanted to target 
the housing to folks who needed supportive services in the area 
of drug and alcohol counseling. Our local HUD rep said, well, 
you cannot do that because they would not be eligible for 
Section 8 if they had chronic drug and alcohol problems. So 
there is a conflict there.
    Mr. Netburn. I would, in the interest of time, just agree 
with the things that were said. These are our clients. They are 
people who are mentally ill, who have been convicted of quality 
of life crimes, et cetera; people who have been evicted from 
other units because they could not pay their rent. That is why 
these people are homeless. So to have many of those things be 
barriers to them going to the type of housing we are talking 
about is very problematic.
    Ms. Hart. I think Ms. Poppe mentioned families as well. Is 
it because the head of the household faces the challenge that 
they have been incarcerated, or have that kind of a challenge?
    Ms. Poppe. Yes. It is usually the head of household. 
Occasionally, it is a youth offender who is a member of the 
family, where the youth has committed a crime, that they will 
be ineligible. Usually those would be a sex-related offense. 
They are pretty rare circumstances, but they are the most 
difficult to house. In part, it is because there is not a good 
availability of treatment services to go with the housing to 
help the individual be really stable out in the neighborhood 
and out in the community, because we certainly do not want them 
to re-offend.
    Ms. Hart. So part of the solution is actually to have a 
more complete package of services?
    Ms. Poppe. Absolutely.
    Ms. Hart. Okay. Thank you.
    I yield back.
    Mr. Renzi. I thank the gentlelady.
    My neighbor across the hall in the Cannon Building, Mr. 
Scott, who showed up on time, but we had all this seniority we 
had to get through. Mr. Scott?
    Mr. Scott. Thank you. I appreciate those brownie points.
    My question is to the gentleman from Philadelphia, Mr. 
Hess, about the phenomenal success in Philadelphia. I have 
spent some time in Philadelphia attending college at the 
University of Pennsylvania's Wharton School. While there, this 
homelessness problem was really being magnified in 
Philadelphia, while at the same time there was a lot of 
downward pressure because of urban decay and Philadelphia's 
massive loss of housing stock, especially up in North 
Philadelphia, which makes your success story all the more 
remarkable.
    Especially the fact that you went from, I think you said, 
about 400,000 and some homeless to around 150,000 homeless, and 
then you had a 50 percent drop. Given all of that and the 
downward pressure also from the loss of all that housing stock, 
the nation would be very interested in knowing what were the 
centerpieces of your strategy that provided this remarkable 
success story of homelessness in Philadelphia?
    Mr. Hess. I thank the gentleman for his kind words. We 
point out that Mayor Franklin is from Philadelphia as well.
    Mr. Scott. Absolutely.
    Mr. Hess. We are proud of the work that is going on in 
Atlanta. Really, it started in our city with a public 
discussion over the issue of the number of people sleeping on 
the streets. It really was a very vocal discussion on both 
sides of that issue that led to Mayor John Street taking very 
strong leadership to say we were not going to criminalize the 
act of being homeless on the streets of our city, but yet we 
were going to try a social service engagement strategy and put 
$5 million new dollars immediately on the table to bring the 
appropriate systems and resources to bear.
    So we added street outreach teams and created a police 
detail strictly dedicated to homeless service issues to work 
with those social service teams. But the biggest thing we did 
was add residential treatment placement slots, housing with 
treatment and support. That has been really remarkably 
effective. At first, it was drug and alcohol treatment programs 
with residential housing and behavioral health housing. We 
added about 2,000 units of behavioral health beds with services 
attached in the city, and hundreds of drug and alcohol recovery 
house beds.
    So that was the first piece. Once we were able to reduce 
the street population by about 50 percent, we then recognized 
that those strategies in and of themselves would not get us to 
our goal of ending the need for anyone to sleep on our streets. 
That is when we turned to the Housing First approach. 
Supportive housing is just so incredibly important. I was 
really thinking about Chairman Ney's question about the de-
institutionalization. The fact is that I think now we have 
learned over time how to provide services in housing for almost 
anybody.
    Mr. Scott. Mr. Hess, let me ask you because I do not want 
to use all my time here, but let me ask about rental 
assistance. Tell me how rental assistance played in your 
program and how impactful and important it is?
    Mr. Hess. It is absolutely critical to be able to house 
people permanently with supportive services. We were able to 
kind of cobble together some of the services locally, but we 
had to have the rental subsidies to make that portion of our 
success happen. It remains critically important as we look to 
the future.
    Mr. Scott. Thank you.
    Ms. Poppe, may I ask you this question, in the legislation 
there is a funding mechanism that says you get 3-year grants, 
and then after that 3 years you get a renewal, but that 3-year 
renewal is one-half of what the original was. Do you believe 
that that authorization is sufficient to provide the necessary 
funds to address this chronic homelessness?
    Ms. Poppe. It has been our experience that overall just 
over half of the support for our supportive housing units that 
have been developed in Columbus do come from the federal 
government. That does not mean that at the beginning of the 
project their funding got cut by half as we move through the 
process. So I do believe that that formula should be addressed 
and adjusted. It is one thing to say it is 50 percent of the 
overall project cost, but it is another thing if the real 
intention is to cut the funding by 50 percent.
    Under the current collaborative initiative to end 
homelessness, we are in a declining scale as it relates to the 
HHS component, under SAMHSA, but the rent subsidies under HUD 
under the SHP program have remained constant throughout the 
term of the grant. We believe that the housing subsidy portion 
of it definitely needs to stay fully in place. The service 
piece perhaps could decline as you could bring in locals, 
because there is a substantial part of funding for services 
that can come from the local and the state government. But 
absolutely, the housing component needs to stay there because 
that is the only way we can keep folks affordably housed.
    Mr. Scott. One final question, Mr. Chairman. There has been 
some debate and discussion among professionals as well as 
housing and homeless advocates in terms of the definition of 
``chronic homelessness.'' Do you feel that there is a need for 
us to try to come up with some definition, and this could be 
for any member on the panel, for chronic homelessness, and if 
we needed to write that into the statute? If so, what do you 
think, just very quickly, what it would say? Mr. Hess?
    Mr. Hess. I would say that we follow the research, and we 
look at the research of Dr. Culhane from the University of 
Pennsylvania and we see that 10 percent of the population meet 
the chronic definition that he has developed, and that they are 
using 50 percent of our resources, we would say with or without 
a definition that is a group we ought to target and we ought to 
focus on because we believe that if we are able to move that 10 
percent that is utilizing 50 percent of our resources, into 
permanent housing and out of our shelter systems, that 
ultimately we will have more resources to be able to address 
the need of everyone else that experiences homelessness in our 
community, whether that be individuals or families.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Whitehead. Mr. Scott, we certainly believe that the 
definition should be expanded because we certainly believe that 
it is important to address the issues of this population, but 
we do not believe that you should be pitting populations 
against each other. Homeless families and children are just as 
vulnerable as chronically homeless individuals as defined in 
the legislation.
    In addition to that, there is also additional research by 
the RAND Corporation in Houston that says people that are 
homeless have some of the same issues as people that are 
chronically homeless by definition. We do not completely 
understand the freed-up resources because if people are 
chronically homeless and need the resources for permanent 
housing, permanent housing is housing that remains forever. So 
we do not understand how resources are freed-up if you provide 
permanent housing for people over a period of time.
    Mr. Scott. Thank you very much, Mr. Chairman.
    Mr. Renzi. I thank the gentleman. I want the gentleman to 
know I am willing to work with him, too, maybe during the 
markup period at looking at what an amendment might be on the 
definition, particularly given all the testimony we have gotten 
here today.
    The gentleman from Alabama, Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman. Let me begin my 
comments by saying that while I think I agree with a lot of Ms. 
Waters's comments that there are some well-founded objections 
to this legislation, I do think that this needs to be said on 
the outset. Mr. Renzi has certainly shown a remarkable 
commitment on this issue in the last year-and-a-half, and not 
just with the work that he is doing today.
    As we speak, the agriculture appropriations bill is being 
marked up and Mr. Renzi and I are cosponsors of a bill that 
will allow guarantee fees to be included in financing for FHA 
loans, USDA loans. That is, I think, the fourth or fifth time 
this year that Mr. Renzi has been successful in getting a bill 
of his enacted into law. I certainly want to thank him and it 
is something that people in this room should know.
    Let me pick up, if I can, on Mr. Scott's questions. 
Obviously, you have heard from a number of people on this 
panel, from a number of yourselves, about the weakness of the 
definition of ``chronically homeless.'' The overwhelming 
majority of you were supporters of this bill. Those of you who 
are supporters, how many of you are wedded to that definition? 
How many of you think that it is critical to the efficacy of 
this bill that the definition remain as it is now? Any of you? 
As we used to say in the courtroom, let the record reflect that 
no one answered that question affirmatively, and several nodded 
their heads negatively. So let's work from that assumption.
    One of the things that is striking to me is that under both 
the McKinney-Vento formula and under this formula there is a 
tendency to fixate on people who are homeless because of long-
term issues in their lives such as disability or alcoholism or 
mental illness. It strikes me that there is another emerging 
population of homeless people who fall frankly outside the 
ambit of all these bills, and I want to talk about that for a 
minute.
    Given the dislocations we have had in this economy in the 
last several years, given the fact that in my opinion and the 
opinion of a lot of us on this committee, the economic 
inequality in this country is widening and we are pushing 
people onto the margins who have never been on the margins 
before. There is a new class of people who are homeless not 
because they are mentally ill, not because of any lifestyle 
issues, but simply because they cannot afford to make payments 
which are unbelievable in a lot of our major urban areas. The 
price of rent in DC, San Francisco, Boston, you have a lot of 
people who do not come anywhere near the profile of homeless 
who fit that category because they cannot afford $2,500 a month 
in rent.
    Can any couple of you talk for a moment about what we could 
do to address that problem of people who have fallen into 
short-term economic distress?
    Ms. Roman. If I could speak to that, I have two 
observations. The first is, we want to avoid a situation in 
which having a housing crisis enter the homeless system and 
cannot get out. That is what is happening now. Anybody who has 
a housing crisis enters the homeless system and their stays are 
becoming longer and longer because there is no exit strategy. 
So we need to get people back into housing faster. The way we 
do that is by increasing the supply of affordable housing.
    So this is not a homelessness issue. This is a housing 
affordability issue. We need a strong rent subsidy program like 
Section 8 and we need a production program like the National 
Housing Trust Fund or other production programs. I think we 
need to be careful not to try to solve the entire housing 
affordability issue of the country through the homeless 
programs. We ought to strengthen the affordable housing 
infrastructure and avoid people becoming homeless in the first 
place.
    Mr. Davis. Do any one of you think that the 
Administration's proposed changes in Section 8 over the last 
several years are a good public policy goal for this country? 
Does anybody on the panel think that? As we used to say in the 
courtroom, let the record reflect that nobody bit on that one 
either.
    [Laughter.]
    Let me close on this observation with you, Mr. Whitehead. 
The nature of these hearings is that there are a lot more of 
you all witnesses than there are of us members who were here, 
and there are a lot of lobbyists out there and a lot of interns 
and a lot of staffers, and they miss a lot of what is said. So 
I want to make sure people heard something that you said today.
    If I understood you correctly, 10 years ago you experienced 
a situation of temporary homelessness. That is something I want 
people in this room to hear for two reasons. First of all, no 
one looking at you today would recognize that. That is 
important because it shows us that the profile of this problem 
does not always look like the people we suspect.
    Second of all, if I can just take 30 seconds to make this 
point, you acknowledge that the rehabilitation in your life 
happened in part because of publicly assisted and guarantee 
programs. It is important for us to know that because every now 
and then on this committee and all the others, we tend to 
reduce these problems to an analysis of numbers and we get 
caught up on the merits of not doing anything versus not doing 
enough, and we have all these abstract arguments.
    Every now and then it is important for somebody to come in 
here and tell us that there is a power in what we do, and that 
power is the ability to every now and then shape the lives of 
individual people. So I wanted to make sure everybody in this 
room who might have missed your success story in the midst of 
all the interruptions, to make sure that they heard it because 
it speaks to ultimately what this institution can do.
    I will yield back.
    Mr. Renzi. Mr. Davis, thank you for your articulation, as 
always substantive.
    We are going to go ahead and dismiss this panel. Let me say 
to you, thank you very much. I am open to an amendment on the 
definition of homelessness, given the fact that you all brought 
great arguments to the dais today I think most of us here in 
this room agree with, and I was part of the ones that did sign 
on to the Section 8 letter that was worried about that issue. I 
would also say that this is new money. It is not money taken 
from one program for another. The motive was simply to target a 
specific area where we could make some gain, again not to, and 
I know there are tons of issues out there that we can deal 
with, and hopefully in that targeting make some people's lives 
better.
    Thank you for coming all the way from all your homes and 
towns, and for being part of this. Let the record reflect that 
the chair notes that some members may have additional questions 
for this panel which they may wish to submit in writing. 
Without objection, the hearing record will remain open for 30 
days for the members to submit written questions to these 
witnesses and place their responses in the record.
    We dismiss the first panel and welcome the second panel, 
and also welcome our chair, Mr. Ney.
    Chairman Ney. [Presiding.] I want to thank the second panel 
for your patience. We have the Honorable John W. Hickenlooper, 
Mayor, City and County of Denver, Colorado; Mr. Philip Mangano, 
executive director, Interagency Council on Homelessness.
    I am going to defer to Chairman Baker for the introduction 
of the third panelist.
    Mr. Baker. Thank you, Mr. Chairman. I want to express my 
appreciation to you for courtesies extended in providing an 
opportunity for the Mayor of my principal municipality in the 
Sixth District of Louisiana to be able to be with us this 
morning, Mayor Bobby Simpson. The Mayor has been an outspoken 
advocate for housing reform within our community.
    We have been a fortunate recipient of a significant Hope VI 
grant providing for the first time significant HUD resources to 
revitalize housing in a very depressed area of the city. The 
Mayor has been a leader in this arena and I think one of the 
first cities to demonstrate leadership with regard to the 
Samaritan Act in formulating their own visionary plan. I wish 
to extend a warm welcome to the Mayor and my deep appreciation 
to you, Mr. Chairman, for the courtesies extended.
    Thank you, Mr. Chairman.
    Chairman Ney. I want to thank the Chairman for his 
introduction.
    We are going to start with the Honorable Bobby Simpson. Is 
it true it is Mayor-President in Louisiana?
    Mr. Simpson. Yes, sir. We are in a consolidated form of 
government. I am actually Mayor of the city of Baton Rouge and 
President of our Parish or County.
    Chairman Ney. That is great. We will begin with you, Mayor.

STATEMENT OF HON. BOBBY SIMPSON, MAYOR-PRESIDENT, BATON ROUGE, 
                               LA

    Mr. Simpson. Thank you.
    First of all, let me thank my Congressman, Richard Baker, 
for the courtesies extended to us. He has been a partner with 
us in changing some of the affordable housing stock in Baton 
Rouge, Louisiana. We have made significant improvements to 
single-family homeownership in our community.
    I also want to thank Mr. Mangano for making several trips 
to Baton Rouge, Louisiana and being part of us and helping us 
to establish our 10-year plan, one of the first, probably the 
first in the State of Louisiana and one of the first in the 
south.
    As Mayor-President of East Baton Rouge parish, I represent 
a diverse community of both rural and inner-city. Our community 
has been fighting the problem of chronic homelessness. The 
problem of chronic homelessness is not just a big city problem. 
It is a problem that affects the communities across the 
country, both large and small, urban and rural.
    We have formed the Mayor's Task Force to End Chronic 
Homelessness. This task force was established to link and 
expand the local network of homeless service providers to 
include businesses, schools, law enforcement and the faith 
community. Our goal was to create a one-stop shop for 
homelessness support. No one agency will be able to solve 
chronic homelessness. This has to be a collaborative community 
effort.
    As a community, we took what we have learned from our 
Mayor's Task Force to End Chronic Homelessness and applied it 
to our 10-year strategic plan. Our 10-year plan is an example 
of the way that private and public agencies can come together 
to strategically coordinate and collaborate in the development 
and implementation of a community-wide plan to end chronic 
homelessness.
    Our Office of Economic and Community Development, along 
with entities such as the Capital Area Alliance for the 
Homeless, Volunteers of America, Salvation Army, St. Vincent de 
Paul Society, Myriam's House, Catholic Community Services and 
other nonprofit providers represent a diverse and strong 
community response, which includes both faith-based and 
traditional nonprofit provider organizations.
    As president of the Louisiana Conference of Mayors, the 10 
big cities in the State of Louisiana, I am very familiar with 
the Samaritan Initiative. In June 2003, the U.S. Conference of 
Mayors met and passed a resolution endorsing the 
Administration's effort to end chronic homelessness and 
supporting the 10-year planning process for cities. On January 
15, 2004, East Baton Rouge parish unveiled its 10-year plan to 
end chronic homelessness. The City-Parish of Baton Rouge 
supports the concept of single application process
    Mr. Mangano from the Interagency Council was with us for 
that announcement.
    The City-Parish of Baton Rouge supports the concept of the 
single application process provided by the Samaritan 
Initiative. It fits ideally into our City-Parish efforts of a 
one-stop shop for homelessness services. We support the housing 
strategies that move the chronic homeless from the streets and 
shelters into housing. We have created the Neighborhood Housing 
Network to partner with the city to utilize adjudicated 
properties for developing housing for the homeless. We continue 
to identify available land to construct Housing First homeless 
development.
    We have formed a partnership with the Baton Rouge Police 
Department to create the Homeless Triage Center. This center 
gives police somewhere else to bring the homeless instead of 
incarceration. The Homeless Triage Center puts the client in 
touch with proper services to help end chronic homelessness. 
The goal is to have all our assets working together. East Baton 
Rouge Parish has many services, but for them to have the most 
effect there needs to be collaboration and strategic 
partnerships. The Samaritan Initiative encourages this 
collaboration and partnership.
    Chronic homelessness is a challenge we must fight together. 
It is not just a big city problem. Chronic homelessness affects 
us all. This is a problem that taxes our police department, 
health services, and our community. No one agency will be able 
to solve it. To accomplish our goal of ending chronic 
homelessness, local, State and federal entities must work 
together to maximize our assets. I truly believe that in the 
world's most prosperous country, it is unacceptable to have 
men, women and children living on the streets. A home is 
fundamental to an individual's happiness, health and success. I 
am committed to our community's effort to end homelessness in 
Baton Rouge.
    We wish to thank the committee for allowing us to testify. 
Thank you, Mr. Chairman.
    [The prepared statement of Hon. Bobby Simpson can be found 
on page 148 in the appendix.]
    Chairman Ney. Thank you, Mayor.
    Usually we go on and move on to the other witnesses, but as 
I understand it you have to be out at 12:30. So if there are 
any questions for the Mayor now, we will then move on.
    Mr. Baker.
    Mr. Baker. Thank you, Mr. Chairman.
    Mr. Mayor, one of the areas where I know we have particular 
difficulty in Baton Rouge is with homeless veterans. If there 
is any segment of our population that may deserve special 
treatment, it is those who have served the country and now find 
themselves out on the street.
    Is there any particular portion of the Samaritan program 
that speaks to that particular segment of the population? Is it 
generally blind and it is up to the local community to identify 
the needs? Finally, what else can be done, in addition to the 
basic boilerplate? I understand the funds for the Samaritan 
program are fairly limited, about $70 million nationally. 
Obviously, one answer from a Mayor is always more money.
    Mr. Simpson. That is right.
    Mr. Baker. But is there any other additional resource, 
help? What else could we do to work more effectively with you 
in meeting these needs?
    Mr. Simpson. More money.
    [Laughter.]
    No, I think Mr. Mangano will address that a little bit in 
his testimony. The VA is part of the collaboration under the 
Samaritan Initiative. A lot of the things that we talk about, 
including the Section 8 vouchers, are about rental properties. 
To me, chronic homelessness, to end it you have to establish 
homeownership. I think that is one of the mandates and one of 
the basic tenets of what we are all working on is true 
homeownership for all.
    We have had this discussion over the last couple of hours 
about whether you need to change Section 8 or whatever, but we 
have a housing stock problem in this country. In my own parish, 
we are building $200,000-plus houses, but we are not building 
the $100,000 starter homes. This is an issue that faces the 
young folks that are growing up, but it also affects anyone 
that has a major health problem, which many of our veterans do.
    So I think the collaboration that is there with the 
Samaritan Initiative is something that will help us all in 
solving that problem, particularly as it relates to veterans.
    Mr. Baker. Thank you, Mayor.
    I yield back.
    Chairman Ney. Mr. Davis?
    Mr. Davis. Thank you. I will be brief, Mr. Chairman.
    Mayor, let me take advantage of your expertise at the local 
level to get a little bit of insight from you on Section 8. I 
understand the thrust of your last answer is that you believe 
there is a major housing stock problem. I do not think it is an 
either/or and I do not necessarily disagree with that 
observation, but I do not think it is an either/or.
    Mr. Simpson. Right.
    Mr. Davis. Let me ask you this, how long have you been 
Mayor again?
    Mr. Simpson. Off and on for 12 years.
    Mr. Davis. All right. Over that 12 years, obviously you 
have had a chance to work with the Section 8 program. Do you 
believe that the Section 8 program is somehow overfunded, that 
we are putting too many resources into it?
    Mr. Simpson. I do not believe any federal program that 
filters down to the local level is ever overfunded. We need 
more money.
    Mr. Davis. Do you have any agreement or any sympathy with 
the Administration's decision back in April that will lead to 
the elimination or the reduction of Section 8 vouchers?
    Mr. Simpson. No, not exactly. I mean, again we were called 
here on the Samaritan Initiative.
    Mr. Davis. I understand that.
    Mr. Simpson. We do not see what is going on behind the 
scenes with some of your dictates and discussions.
    Mr. Davis. But you see what is going on above the scenes, 
and from what you are saying you think Section 8 is something 
that is a good valid commitment from the government.
    Let me ask you this question, do you have any explanation 
or do you have any clue why the Administration, because frankly 
a lot of mayors agree with you. I have not heard from any 
mayors who have a different perspective on Section 8 than you 
do. Do you have any explanation of why the Administration seems 
to be in a different place on Section 8 from where the 
overwhelming majority of Republican and Democratic mayors are?
    Mr. Simpson. No, I do not.
    Mr. Davis. Have you shared that with Mr. Baker and any of 
your friends who may have the ear of the Administration?
    Mr. Simpson. No. All I can tell you is I am a member of the 
National League of Cities and we support the Samaritan 
Initiative, but we also support Section 8. We are still having 
the housing issues that just about any city of any size is 
having.
    Mr. Davis. What about Hope VI? Is Hope VI also a good, 
valid program?
    Mr. Simpson. Hope VI, we are a recipient of Hope VI, we are 
very, very proud of it.
    Mr. Davis. How many Hope VI programs are going in your 
community right now?
    Mr. Simpson. Just the one.
    Mr. Davis. When was that one launched?
    Mr. Simpson. Last year.
    Mr. Davis. Last year? And do you believe that something is 
going to be in effect a program for housing in your area?
    Mr. Simpson. Yes.
    Mr. Davis. And you do not support the elimination of Hope 
VI, do you?
    Mr. Simpson. No.
    Mr. Davis. I do not know very many mayors who do. Have you 
communicated to Mr. Baker or to the Administration your 
confidence in the Hope VI program?
    Mr. Baker. Would the gentleman yield on that point?
    Mr. Davis. I will.
    Mr. Baker. It was because of his effective congressional 
representation and continued unswerving commitment to 
excellence.
    [Laughter.]
    Mr. Simpson. Exactly what I was going to say, Congressman.
    Mr. Baker. Fighting the odds against many large urban 
centers which take most of the Hope VI money that our small 
community was able to get a few crumbs and help our Mayor take 
an excellent step toward progress in helping those underserved 
in our community.
    I thank the gentleman for yielding.
    Mr. Davis. Reclaiming my time, I welcome that commitment 
and I hope that your testimony and Mr. Baker's testimony, as it 
will, is one that is heard by the Administration.
    I yield back.
    Mr. Simpson. Thank you, sir.
    Chairman Ney. Are there other questions? Mr. Scott?
    Mr. Scott. One quick one, Mr. Mayor. In your opening 
comments, you mentioned your preference for homeownership over 
rental units. The Millennial Housing Commission's report, have 
you read that?
    Mr. Simpson. No, sir.
    Mr. Scott. It states that the lack of affordable low-income 
rental units is by far the more serious problem. On the panel 
before I asked the gentleman from Philadelphia and others about 
rental assistance. It appears to me that the general national 
opinion runs counter to yours. I was wonder why is that?
    Mr. Simpson. In my personal opinion, again I am giving you 
my personal feelings, I believe that homeownership is 
tantamount to being American today. I think we need to move all 
of our goals towards homeownership. I agree with Mr. Davis's 
comments, we cannot do one without the other. You cannot take 
the population that are having to live in the rentals and just 
do away with the program. But to me, if we can transition from 
rental into ownership, and that requires a tremendous 
collaborative effort with the building of new homes and the 
affordability of those homes. To me, that is the issue that we 
are facing as a nation today is the affordability of single-
family homeownership.
    Mr. Scott. Would you say that might be unique according to 
the region of the country?
    Mr. Simpson. I think so. Some of the things in Louisiana, 
and particularly Baton Rouge, you can almost buy as cheap as 
you can rent. So that may have something to do with some of the 
things you are talking about.
    Mr. Scott. Right, especially on some of the real hardcore 
urban centers where housing stock is not as plentiful, say, in 
Denver or Atlanta.
    Mr. Simpson. And with the deterioration of inner-cities and 
the revitalization efforts that are going on, if we can put 
some programs together that can make low-income housing 
affordable to where the folks that are already living there can 
move from the rental vouchers, and take those vouchers into 
homeownership which, to me, that is a good program also.
    Mr. Scott. Are you comfortable with the definition of 
``chronic homelessness''? Or do we need to write one, and if so 
what would it say?
    Mr. Simpson. I think he has already said that he would be 
willing to take a look at that. You know, we create a specific 
program, this Samaritan Initiative, to target a particular 
population. It seems that it is getting caught up in all the 
other programs that are available. I do not think you throw the 
baby out with the bath wash.
    This is a program from a local government aspect that is 
very needed, because when you have 10 percent of the folks that 
are involved using 50 percent of our resources, and a lot of 
times for some of the cities with no mechanism in place to even 
move them off of the street anywhere else. So a lot of times 
the frustration from local governments is you just do not tend 
to deal with it. So the program continues to grow and you get a 
larger homelessness section. So if it is a definition aspect, I 
think you gentlemen need to work that out yourselves.
    Mr. Scott. Thank you, sir.
    I yield back.
    Chairman Ney. Any further questions? Mayor, I want to thank 
you. I know you have to leave.
    Mr. Simpson. Thank you.
    Chairman Ney. Thank you. I appreciate your trip to the 
capital and your testimony.
    Next, we will go to the Honorable John Hickenlooper. Mayor?

STATEMENT OF HON. JOHN W. HICKENLOOPER, MAYOR, CITY AND COUNTY 
                         OF DENVER, CO

    Mr. Hickenlooper. Good morning, Chairman Ney, other members 
of the subcommittee. Thank you for this opportunity to testify 
before you in support of the Samaritan Initiative Act.
    I was only elected a year ago and had never really been 
involved in political campaigns. I did, as an entrepreneur, 
develop housing as a private individual and also did affordable 
housing. One of the reasons I ran for office was the lack of 
nonpartisan collaborative and programs with measurable 
outcomes. I think that is one of the things that this Samaritan 
Initiative act really stands for.
    You have heard about most of the details already so I will 
not bore you with that. In Denver, we received last year $1.9 
million from HUD in the Shelter Plus Care Program over 4 years. 
We sub-granted that out to the Colorado Coalition for the 
Homeless, who have since receiving the first funding in January 
have already placed 47 out of 60 of the individuals in that 
program for the chronically homeless.
    I also want to thank Mr. Mangano and the Interagency 
Council on Homelessness for really addressing this issue in a 
collaborative way and bringing together, especially those of us 
on a local level and new to government. The matrix of services 
and how to patch them together is often challenging. I think 
that this initiative is a second step in making a seamless 
approach to addressing homelessness.
    One of the major issues we face in Denver is our hospital, 
Denver Health, our large urban hospital which is the major, by 
far, provider of indigent care and spent over $44 million last 
year on healthcare for the homeless. That has driven us. That 
has grown by over 20 percent for the last 2 years and driven us 
to be on the precipice for the first time in our history of 
considering specifying certain types of care that we would no 
longer be able to give to indigent people.
    I am also, in addition to representing the people of Denver 
today, representing mayors from across the country. Last month, 
the U.S. Conference of Mayors enthusiastically endorsed the 
Samaritan Initiative Act of 2004 as a vital first step in 
addressing some of the issues around chronic homelessness. At 
the same time, the U.S. Conference of Mayors also 
enthusiastically endorsed maintaining full funding for Section 
8. I think it recognizes that Samaritan is a complement, and 
not a substitute for that funding, and that you cannot do one 
without the other.
    I am assured and am confident that the Samaritan Initiative 
would help Denver and many other cities bring an end to chronic 
homelessness and be a major step to ending homelessness 
altogether. Again, as someone who ran for measurable outcomes, 
to see we now have over 125 cities committed to ending 
homelessness in 10 years. That is something that those of us 
outside of government have rarely seen. I see it as incredibly 
encouraging. This initiative, again, is one of the steps to get 
to that destination. I hope that we can get all of your support 
for that.
    Thank you for your attention today, as well as your support 
of Denver and other communities as we work together to end 
homelessness.
    [The prepared statement of Hon. John W. Hickenlooper can be 
found on page 76 in the appendix.]
    Chairman Ney. Thank you for your testimony.
    Mr. Mangano.

STATEMENT OF PHILIP MANGANO, EXECUTIVE DIRECTOR, UNITED STATES 
              INTERAGENCY COUNCIL ON HOMELESSNESS

    Mr. Mangano. Thank you, Chairman Ney. I want to give a 
special thanks to Mr. Renzi for sponsoring the Samaritan 
Initiative legislation. I believe it is an important next step 
in the efforts to end homelessness, and specifically focusing 
on chronic homelessness in our country.
    In this room are a number of the federal partners from HHS, 
HUD and VA and Labor who have worked to reduce the statutory, 
regulatory and cultural barriers to make the Samaritan 
Initiative possible. Without them, this unprecedented 
collaboration would not have been possible.
    From all those who have testified today, some who I have 
known for many years during my 24 years of advocacy for 
homeless people, mostly spent in Massachusetts, what I heard 
was a near-unity in support of the Samaritan Initiative. In the 
President's fiscal year 2003 budget proposal and then again in 
his 2004 and 2005 proposals, he has called on this nation to 
end chronic homelessness in the next 10 years, the homelessness 
of those most likely to be on the streets of our communities, 
severely disabled by mental illness, addiction or developmental 
disabilities, and tragically those most likely to perish on 
those streets from exposure.
    Cabinet secretaries and agency and department heads have 
responded, and the revitalization of the U.S. Interagency 
Council on Homelessness has convened 20 federal agencies in the 
Administration's response. Not only is this Administration 
reorienting its homelessness resources to accomplish the 
objective, investing deeper resources in the prevention of 
homelessness and providing technical assistance through policy 
academies for states to partner with Washington in making 
mainstream resources more responsive and available to homeless 
people, the president has also proposed the Samaritan 
Initiative.
    Mr. Renzi, as lead sponsor and others who have signed on, 
understand that the Samaritan Initiative represents a new 
approach to our country's effort to reduce and end the national 
disgrace of homelessness. Disabled homeless veterans who live 
in encampments in the woods in rural areas or who forage for 
food from dumpsters in our cities; homeless mentally ill elders 
wandering the streets of our communities, sleeping in doorways 
or long-term in overcrowded shelters; those with the disease of 
addiction on the streets of every city in our country; 
physically and developmentally disabled men and women who 
wrestle with homelessness in their treatment and their 
recovery; these and others are the focus of the Samaritan 
Initiative.
    As the name implies from that old story, this initiative is 
targeted to those who are on the side of the road, on the 
street, long term in shelters, long term in homelessness. 
Others ignoring their plight, indifferent to their situation, 
insulated from their presence, have walked by. The Samaritan 
Initiative is saying that we are going to stop. Federal 
agencies and our governmental partners in statehouses, city 
halls and county buildings, and our private sector business 
partners and our community and faith-based partners, we are 
going to stop and ensure that those who are on the side of the 
road are moved toward housing and the services they need to 
stabilize their lives, treat their ailments, and sustain their 
tenancies.
    That is what the Samaritan Initiative is, supporting 
neighbors. We have all long understood the moral and spiritual 
and quality of life issues attending to these lives. But the 
recent research tells us that there is another compelling 
reason to respond, economics. Across our country, study after 
study from Seattle to New York, from Columbus to Denver, is 
telling us that those experiencing chronic homelessness on our 
streets are some of the most expensive citizens in our 
communities. A recent study in San Diego demonstrates this new 
understanding.
    The City and County of San Diego commissioned the 
University of California at San Diego to follow people who are 
experiencing chronic homelessness on their streets. The 
presumption was that these people did not cost very much; that 
they slept on the beaches and in the parks and on the streets 
of San Diego, and that they begged for what they ate and what 
they drank.
    But when the city and county engaged the university in the 
study, they uncovered a different story. Their research 
following just 15 chronic street inebriates for 18 months 
revealed that the 15 people had 299 entrances into the 
emergency rooms of local hospitals, similar to what Mayor 
Hickenlooper described in Denver. In that period, they were 
usually taken by ambulances and EMTs to those 299 entrances at 
the cost of nearly $1 million to the city and county of San 
Diego.
    When acute substance abuse and mental health treatment were 
added for the 15, plus law enforcement interventions and 
temporary incarcerations, the total cost for the 15 in the 18 
months was $3 million, or an average of $200,000 per person. 
San Diego knew that they could do better. Through results-
oriented, cost-effective planning, they are, through their SIP 
program and a 10-year planning process.
    What was most disquieting and the cause of much frustration 
to those city officials was that after the expenditure of $3 
million or $200,000 per person, those 15 were in the same 
condition and the same situation as before the funds were 
spent. Those ad hoc siloed crisis interventions were expensive 
and ultimately ineffectual in remedying the situation or 
improving the condition.
    A long time ago, Einstein warned us that a certain sign of 
insanity is doing the same thing over and over again, expecting 
different results. Well, the Samaritan Initiative aims to break 
that cycle on our streets and in the shelters of our country. 
How? First, moving from ad hoc, siloed crisis responses to 
coordinated strategic solutions, starting in Washington where 
three federal departments, HUD, HHS and VA, are partnering in 
the unprecedented Samaritan Initiative to ensure that housing 
and service resources are available together in a single 
application, and through that coordination requiring a similar 
coordination in communities across the nation. Samaritan leaves 
room for other of the 20 federal agencies now partnering in the 
United States Interagency Council to join that effort.
    Second, the Samaritan Initiative moves beyond simply 
funding programs to investing in results. The bill calls for 
grantees to measure outcomes and quantify results.
    Third, the Samaritan Initiative challenges the status quo 
of homelessness in calling for a new standard of expectation 
that we will see visible, measurable and quantifiable change on 
our streets, in our programs, and especially in the lives of 
homeless people. No longer are we content to shuffle homeless 
people from one city to another, from one side of town to 
another, or from one homeless program to another, or from the 
street to treatment and back to the street. The Samaritan 
Initiative, along with the prevention resources proposed by the 
president in his budget, offer a whole prevention and 
intervention strategy to reduce and end chronic homelessness.
    Fourth, the Samaritan Initiative offers to our state and 
city and county partners, such as Mayor Hickenlooper and Mayor 
Simpson, new resources to invest in the results-oriented 10-
year plans that they are creating across the country from 
Massachusetts to Chicago, from Minnesota to San Francisco. The 
Council has partnered now with 46 Governors in the creation of 
State Interagency Councils, and with 127 mayors and county 
executives in the creation of 10-year plans to end chronic 
homelessness.
    This partnership that literally extends from the White 
House to the streets, moves through 20 federal agencies, 
statehouses, city halls, in partnership with the private, 
nonprofit and faith-based sectors, along with homeless people 
themselves, partnerships to create results-oriented, cost-
effective plans, driven by data and research and performance 
and outcome-based.
    Samaritan is an investment in these plans and partnerships, 
and indicates our nonpartisan support to reduce and end 
homelessness on our streets. In developing these city plans, we 
have worked closely with the U.S. Conference of Mayors, who 
have agreed with us that on this issue of homelessness, 
partnership trumps partisanship. There is no D or R or I on 
homelessness. We are just Americans partnering to end a 
national disgrace.
    Congress has received two letters from over 80 mayors 
endorsing Samaritan. The U.S. Conference of Mayors endorsed the 
Samaritan Initiative last month at its annual meeting. A number 
of national homeless, faith-based and issues-related 
organizations have endorsed it as well, as have individual 
provider agencies.
    But the most important endorsement for Samaritan comes from 
the field, from the streets. Last year's precursor to the 
Samaritan Initiative, the Collaborative Chronic Homelessness 
Initiative, has produced results. Invested in 11 cities across 
the country, initiatives begun earlier this year such as the 
one in Denver have already found the target and hit the bull's 
eye. Hundreds of those who have been on our streets for years, 
and long term in our shelters, have moved into permanent, 
supportive housing and are staying there. By the end of the 
year, hundreds more will join them.
    When we make any investment, we should expect a return. The 
return we are looking for from Samaritan is that people will 
move off the streets, out of long-term homelessness stays, into 
housing and stay here. We are doing and getting just that. The 
investment in the Samaritan Initiative will produce those 
results and move us further away from punitive responses that 
just have not worked.
    Samaritan offers us an opportunity to meet our spiritual 
and moral obligations to the poorest, to improve the quality of 
life in our communities, to save money on homeless and 
healthcare systems, to foster deeper and more collaborative 
relationships in Washington, and then between Washington and 
our nation's communities, and to move beyond the status quo to 
results and efficiencies.
    Finally, when our country says that we will no longer 
tolerate chronic homelessness; we will no longer tolerate a 
homeless veteran foraging for food from a dumpster; we will no 
longer tolerate a mentally ill person finding their sleep on 
our streets; we will no longer tolerate a homeless elder 
succumbing to exposure; when our toleration of street 
homelessness diminishes, our country's soul will feel the 
healing. That remedy will move us closer to the day when 
everyone in our communities will be known by a single name, 
neighbor, and treated as one.
    The Samaritan Initiative moves us as a nation beyond 
indifference and insulation and allows us with all of our 
partners to stop on the side of the road for our neighbor.
    Thank you.
    [The prepared statement of Philip Mangano can be found on 
page 79 in the appendix.]
    Chairman Ney. I thank you for your testimony.
    The gentleman from Arizona.
    Mr. Renzi. Thank you, Mr. Chairman. I appreciate this panel 
and thank you for taking the time.
    I want to ask, when we looked last year at the initiatives 
that were put together, there was a collaborative grant process 
that had some money behind it. We had a little bit of feedback 
where it talked about some of the bugs needing to be worked 
out. Apparently, the process is new. It is a little bit 
burdensome. As we move forward with the hope that the Samaritan 
bill will move, and again open to possibly some clarifications, 
what would it look like as far as the actual process? What kind 
of lessons learned from last year could we apply that we will 
not be bogged down in implementing this? Mr. Mangano?
    Mr. Mangano. First of all, we received the same feedback. I 
think it is to be understood that what we were attempting to do 
with the collaborative initiative, which is the precursor to 
the Samaritan Initiative, was unprecedented. Never before had 
three federal departments, involving four federal agencies 
worked together on a single notice fo funding availability for 
homelessness resources to provide to the field what they would 
need to end chronic homelessness housing and service resources 
together.
    So it was unprecedented, and therefore it was a prototype 
of what needed to come. I think we all remember the first cell 
phones. They were cumbersome. Sometimes they worked, sometimes 
they did not. You needed a little briefcase to carry them 
around. Well, in a similar way the collabarative initiative of 
last year was a prototype. It was cumbersome.
    What we have done with the Samaritan Initiative is to 
streamline that process, make the funding more flexible in 
terms of the pooled resources that would be available. The 
United States Interagency Council on Homelessness fielded all 
of those responses from the field and that information was 
brought to the agencies. Many of those agency personnel are 
here and because of the work done on the Collaborative 
Initiative to identify the statutory, regulatory and cultural 
barriers, they were able to put the Samaritan Initiative 
together.
    Mr. Renzi. Thank you. The first panel did a great job of 
unanimously looking at the classification situation and saying, 
well, we understand that you are trying to target something 
here. I really was looking at the idea of going after those 15 
individuals that you talked about who we are describing as 
chronic homeless. Is there a better way for me to describe that 
in defining it?
    You hear from the testimony from the gentleman from 
California who talked about families being now one of the 
growing sections. I am the father of 12 kids. I do not want to 
turn my back, especially on children. But again, this was meant 
to be a specific arrow of that specific group, particularly 
that came out of that study of 15. Also I heard great testimony 
from the gentleman who talked about seasonal homelessness, how 
particularly in the cold regions of America those seasonal 
individuals maybe go inside and be temporary homeless, but then 
they would be restricted because they do not meet the 1-year 
definition that was brought out.
    So could you help me refine what is the chronic portion 
that we are going after?
    Mr. Mangano. Sure. First of all, I think it is important to 
understand that not only is it one study, but it is multiple 
studies across our country that have indicated that people 
experiencing chronic homelessness are the people most likely to 
die on our streets, to be disabled, and they are the highest 
cost in healthcare systems. When I go around the country and 
meet with people in cities and I ask to look at the lists of 
people who have died on the streets in their cities, nearly 
every person fits exactly the profile of people experiencing 
chronic homelessness. When I talked to mayors like Mayor 
Hickenlooper from Denver and other mayors around the country 
and they are talking about the people who are in their 
emergency rooms, they meet the definition of chronic 
homelessness here.
    There is no question that the full policy of this 
Administration is to address all of homelessness, and much of 
that was addressed in the testimony that was giving to the 
committee by HUD wherein they indicate that nearly half of the 
persons to be assisted by the homeless assistance funds 
invested by HUD are homeless families. HUD's funding assisted 
over 200,000 families including 350,000 families in the latest 
round of McKinney funding.
    As you said, this is exactly a specifically targeted 
initiative meant to make an intervention in the lives of people 
who are on our streets and long term in shelters. There are 
resources addressing other populations. There is no need to put 
every population into the Samaritan Initiative. It is meant as 
that arrow that you described. Certainly, there are many other 
initiatives addressing the homelessness of other profiles of 
homeless people.
    Mr. Renzi. I appreciate it. Mr. Chairman just for a few 
more seconds, if we look at the chronic homeless, particularly 
those most in need on the street, the 15 particularly in the 
study, and that is the arrow I was trying to shoot here, those 
individuals who may live in the cold regions of America and 
necessarily be brought into a temporary shelter, this bill 
right now in its current language would restrict those 
individuals from being part of our initiative. While we may be 
putting and looking at the chronic homeless, those individuals 
that we talked about, and we are talking about individuals 
rather than families, and not turning our back on the families, 
would you be open to the idea of expanding the definition on 
the seasonal side of it?
    Mr. Mangano. Actually, this definition was derived by a 
series of conversations and deliberations that were made by 
HUD, HHS and VA over a 9-month period, really attempting to 
refine the definition to come to terms with what the research 
was indicating to us. The definition attempts to be research-
and data-driven. It is not quixotic in terms of having someone 
come up with a definition, but it responds to the research that 
is being done.
    Needless to say, to the degree that there are other 
concerns, I think other initiatives are being fostered to 
address concerns of other profiles of homeless people.
    Mr. Renzi. Thank you, Mr. Chairman.
    Chairman Ney. Thank you.
    The gentleman?
    Mr. Frank. Thank you, Mr. Chairman.
    Mr. Mangano, you mentioned the mayors resolution in support 
of this program. Have you seen their resolution on supporting 
Section 8 HUD funding?
    Mr. Mangano. I was actually at the U.S. Conference of 
Mayors meeting and heard both of these resolutions brought 
before the Housing Committee.
    Mr. Frank. Okay. It did seem to me relevant to mention both 
of them, because here is my question. And of course the Section 
8, and I would ask unanimous consent to put that into the 
record, it is very critical of HUD's position with regard to 
Section 8. I believe Mayor Hickenloooper referred to it in his 
testimony to the need to have Section 8.
    My problem is you say we are going to end homelessness. I 
am all in favor of that, but I am also skeptical of our over-
promising. Do you believe we now have enough affordable housing 
units to end homelessness in this country, available to the 
homeless?
    Mr. Mangano. I think we have made it clear through the 
research that has been conducted independently of the 
Administration and in documents that the Administration has 
talked about, that we need to provide for 150,000 tenancies 
over the next 10 years with the objective of ending chronic 
homelessness.
    Mr. Frank. That would be additional units. Are these 
additional units to what we are now doing?
    Mr. Mangano. I think part of the notion was to both access 
what units exist----
    Mr. Frank. You are talking like a bureaucrat. Can we talk 
like real people here? Are there going to be additional units 
or existing units?
    Mr. Mangano. They will be additional units in the lives of 
people who experiencing chronic homelessness. Whether they are 
brand new units that are produced, that is a question that is 
now being focused on.
    Mr. Frank. Not produced, because we are not talking about 
necessarily new production, but made available. Here is the 
problem. Mayors are telling us that because of the policies of 
your Administration, they are having trouble solving the 
problems now.
    I am all in favor of ending homelessness. I think it would 
be a terrible error, and I am sure you agree, if we did that at 
the expense of existing people in this. You do not want to set 
up a fight between working families who need Section 8, at the 
working low-income, and the homeless. That is why I am asking 
you, does this anticipate an increase in the number of units 
that are made available for affordable housing through federal 
help?
    Mr. Mangano. Part of the work that we are doing in the 
Administration right now, just as we have called on states and 
cities to develop 10-year plans, we are working within the 
Administration right now in terms of developing precisely a 
strategy that will get us----
    Mr. Frank. Can I ask you the question again? Please. I am 
glad you have plans, but these are fairly specific questions. 
Do you think we have enough units right now under the current 
budgetary situation? Let me put it this way, do you anticipate 
finding more permanent housing for homeless people than we now 
have?
    Mr. Mangano. Absolutely, and that is----
    Mr. Frank. Okay. Do they come from new units made available 
under federal programs? Do they displace existing people? That 
is the problem we have. I want to do this. I want to 
accommodate this. But I think you are kidding people if you 
suggest it can be done within the existing allocation of----
    Mr. Mangano. Both the collaborative initiative of last year 
that was described by both Mayor Hickenlooper and myself, and 
the Samaritan Initiative of this year, are housing initiatives. 
They are both targeted to the creation of more housing 
specifically for this population. So the trajectory is 
precisely to create more units.
    Mr. Frank. Okay. So how are you going to create more units? 
So you do agree we need to create more affordable units. The 
problem is you are working for the Administration that is 
cutting back on them, according to the mayors who you are 
working with. The mayors say, mayors and their residents who 
receive Section 8 vouchers are facing a serious crisis as a 
result of a policy guidance from the U.S. Department of HUD 
where approximately 250,000 Section 8 vouchers would be 
eliminated across the country based on the fiscal year 2005 
proposed funding request.
    I have a disconnect here. You say that this assumes more 
units, but the mayors whom you cite, and I assume you cannot 
turn the mayors on and off, much as you might like to, if you 
cite them in support of your initiative, we have to assume they 
are still valid on the support of the general one. Do you agree 
with the mayors' characterization of the fiscal year 2005 
funding request's impact?
    Mr. Mangano. First of all, I have never found myself able 
to turn off and on mayors. I find that they respond to 
results----
    Mr. Frank. Good. Could you answer my question now? Do you 
agree with their characterization that the fiscal year 2005 
proposed funding request will eliminate 250,000 Section 8 
vouchers and result in unforeseen housing and financial 
hardships by the most needy of our low-income population of 
working poor. That is the mayors. Do you agree or disagree with 
that statement?
    Mr. Mangano. As you know, in Massachusetts there were two 
significant housing programs----
    Mr. Frank. Excuse me. Do you agree or disagree with the 
mayors' statement? Mr. Mangano, you know better than that. I am 
not asking you about what we did in Massachusetts. Nobody 
cares. They have heard too much about Massachusetts lately, 
frankly. They will be talking it about it all day tomorrow in 
the Senate.
    Let us answer my question now. Do you agree or disagree 
with the mayors' whereas, that is a straightforward question.
    Mr. Mangano. I am trying to answer that question.
    Mr. Frank. But not by what you and I did in Massachusetts 
where nobody cares.
    Mr. Mangano. My concern about Massachusetts is that we had 
a housing program that was specifically targeted to this 
population, namely the 707 program. Because of a lack of 
political will there, because people did not want to reform any 
aspect of that program whatsoever, that program now does not 
exist.
    Mr. Frank. Okay. Now can I ask you a question?
    Mr. Mangano. The constellation of political will for a 
housing program----
    Mr. Frank. Now I have to ask you a question.
    Mr. Mangano.--that supports the poor.
    Mr. Frank. Very impressive, Mr. Mangano. I am not asking 
you about Massachusetts. Will you answer the question, do you 
agree or disagree with the mayors' comment about the fiscal 
year 2005 budget request causing this hardship and losing 
250,000 units. I do not understand what that has to do with 
707. Would you just tell me----
    Mr. Mangano. My concern is exactly that, about----
    Mr. Frank. Do you agree or disagree with the mayors?
    Chairman Ney. Look, let's not do crossfire. The Congressman 
has asked him a question.
    Mr. Frank. I am just trying to get an answer to that simple 
question. It does not have to be yes or no. It can be yes but, 
no maybe.
    Chairman Ney. I am not telling you what to answer. I am 
just saying rather than go back and forth.
    Mr. Mangano. My concern is to sustain political will for 
the Section 8 program. I support the Section 8 program. I came 
from many years when I was an advocate for homeless people in 
Massachusetts, here to Washington to support the Section 8 
program. No one wants to see any diminishment----
    Mr. Frank. That is not what I asked you.
    Mr. Mangano.--of people losing housing. The point of the 
matter, though, is that sometimes, as we learned with the 707 
program, when reform is not constellated, you can lose the 
entire program. So my concern in supporting the Section 8 
program is to ensure that it can----
    Mr. Frank. Okay. Let me try one last time. Having said all 
that, do you agree or disagree with what the mayors said? I am 
really disappointed at your dancing around this one. I 
understand the problem. It is a problem because you are part of 
the Administration, and if you do not want to say so, say so. 
By the way, I am not aware of specific reforms they have set up 
here, other than the Secretary saying we have to give it to 
richer people.
    Mr. Mangano. The flexibility that they are talking about 
gets to reform.
    Mr. Frank. But what do you think about the mayors' comment 
in this whereas. Do you agree or disagree in general with what 
the mayors said?
    Mr. Mangano. Which is about the 250,000 units? I have not 
conducted that kind of data research so I cannot speak exactly 
to that. Obviously, I have a concern about the loss of any 
units that would create more homelessness. I do not know of any 
appetite in this Administration, in the Council or in the 
Congress for taking actions that would create more homelessness 
in this country. It is not a growth industry.
    Mr. Frank. You know better than to think that is an answer.
    I am going to close with this. I did not ask you for self-
justification. You should not feel you have to do that. I think 
what you have done on the program is a good thing. But to dance 
around this critical question, because you know we can do all 
of the planning, but these people still have to live somewhere.
    What we have is, your own allies, the people you quote say 
yes, but there is a problem. And the people of the homeless 
coalition. Almost everybody but you, concerned with this 
program, says it is true; it would be good to restructure it 
this way, but the people still have to live somewhere. I really 
am disappointed I cannot get a straight answer out of you.
    No further questions.
    Chairman Ney. The gentlelady from California, the Ranking 
Member.
    Ms. Waters. Yes. Mr. Chairman, I think Barney's question 
makes a lot of sense. I mean on the one hand we have all of 
this planning. This is an agency that plans. But how do you 
plan to solve a problem that is being exacerbated by the 
cutbacks? I guess the philosophy of the Administration that 
feels that it has been too costly and you have not reaped 
enough for it, I mean, that is where it seems that you are 
coming from in your planning.
    Having said that, having done studies and you have learned 
all of this terrific information about chronic homeless people 
costs cities and counties a lot of money. It is cheaper to keep 
them than to just let them stay out there and go these 
emergency rooms and the jails and all where they cost more 
money.
    Now having said all that, who has come up with a model to 
deal with chronic homelessness? I think we have to recognize 
some things. These people are mentally ill. They are disabled. 
They are veterans with agent orange problems, on and on and on. 
What is the solution?
    Mr. Mangano. You asked for models. I think represented on 
the first panel are two cities that have done an exceptional 
job, both Columbus, Ohio and Philadelphia, Pennsylvania, in 
specifically targeting results-oriented, cost-efficient plans 
at this population that have moved people off the streets, out 
of the clogging of emergency rooms, to housing. There are a 
number of initiatives around our country.
    In your home State of California, the Direct Access to 
Housing program in San Francisco is a perfect example of a 
program that in fact moves people off the streets, the most 
complex, the most disabled, targets those people, moves them 
into housing, provides the support services necessary for their 
well-being to ensure that they will stay in that housing.
    So across the country, there are a number of initiatives 
exactly accomplishing that objective.
    Ms. Waters. Do you know of a model? I missed some of the 
testimony, and I am sorry about that. Do you know of a model 
that basically recognizes that some people barely function. 
They will never be able to live independently, and that they 
need to have the kind of support services that places them in a 
unit where you have centralized services in a complex where 
there are two meals a day and there are janitorial services and 
people are able to do what they can do, but that they will 
never be able to live independently. Do you know of anything 
that recognizes that?
    Mr. Mangano. There are a number of programs around the 
country that in fact respond to that issue. But what we are 
learning more and more is that the strategy of permanent 
supportive housing, which again provides support services to 
people who are disabled by virtue of mental illness or 
addiction, actually that is the model that is most in use in 
our country. That is exactly the kind of model that we are 
attempting to fund with the Samaritan Initiative.
    Ms. Waters. No, but I have not seen this. I want to 
describe it again. I just do not know about it, I guess.
    If someone built 200 units of housing and not necessarily 
would there be another design for families. Say these were for 
single adults who are severely disabled, who are mentally ill, 
who will never be able to live independently.
    Mr. Mangano. Yes.
    Ms. Waters. But they can live with some support services, 
providing they have a clean place to live, someone is preparing 
the meals and they do some kind of group therapy and work in 
crafts or day care, whatever. Who is providing that kind of 
service?
    Mr. Mangano. For example in my home state, we had a special 
initiative to house people who are homeless and mentally ill. 
We moved people from the streets and from long term stays in 
shelters directly into permanent housing, and again provided 
the support services that they needed. Some of those people 
needed deep services for a very long period of time, perhaps 
for the rest of their life.
    Ms. Waters. Those are the only ones I am talking about now. 
I am talking about the ones that are always going to be on the 
street unless extensive services are provided.
    Mr. Mangano. Right.
    Ms. Waters. Did this place that you are describing, did it 
have a central dining room?
    Mr. Mangano. It was actually scattered-site housing, but 
there are certainly models that have congregate living where 
people live together, receive their services in the same 
building, and have meals together. There are many models of 
that across the United States.
    Ms. Waters. For permanent living?
    Mr. Mangano. That is correct.
    Ms. Waters. Do we have that in Los Angeles? Where is that 
located?
    Mr. Netburn. There are several throughout the city and the 
county.
    Ms. Waters. Give me one.
    Mr. Netburn. A Community of Friends projects, and there are 
some in South-Central that specifically----
    Chairman Ney. I am sorry. Can you come to the mike, and 
that way the record will be clear on it.
    Ms. Waters. Community of Friends?
    Chairman Ney. I am sorry.
    Mr. Netburn. Can I state my name?
    Chairman Ney. Yes, identify yourself.
    Mr. Netburn. Mitchell Netburn from the Los Angeles Homeless 
Services Authority.
    One provider that comes to mind would be a Community of 
Friends which specifically develops permanent housing projects 
for people with mental illness, and some of those people with 
mental illness are so severely ill that they need a tremendous 
amount of support services.
    Ms. Waters. I have a design in mind. I want to know if 
there is a program where you have multiple units that provide 
services for the severely handicapped, mentally ill, disabled 
homeless, that is envisioned as permanent living, where you 
have centralized services, where food is prepared, where you 
have psychological, psychiatric health services and activities 
of some sort, where we are not anticipating that they are going 
to roll off anywhere. They are going to be there for the rest 
of their lives. Who has that kind of service?
    Mr. Netburn. As I said, the Community of Friends would be 
one agency that does, and certainly you offered to come on a 
tour of some of these.
    Ms. Waters. Tell me where it is. I will be there before you 
get there. Tell me where it is.
    [Laughter.]
    Mr. Netburn. I doubt that. I am on a plane early tomorrow 
morning.
    Ms. Waters. Where is it?
    Mr. Netburn. There are several. I cannot think of an 
address, but I know they have facilities specifically in South-
Central so I assume there are several.
    Ms. Waters. How many do they have in that facility?
    Mr. Netburn. Their facilities, they tend to be in the 20-to 
about 60-person range.
    Ms. Waters. Is this the only one that you know about? Any 
in downtown Los Angeles?
    Mr. Netburn. Again, that would be some of the SRO housing.
    Ms. Waters. SRO usually does not fit this model that I am 
talking about. SRO just does not fit this model that I am 
trying to describe to you.
    Mr. Netburn. Some of them do, some SROs have individual 
units where they have a bath.
    Ms. Waters. And they are on their own.
    Mr. Netburn. Yes, but not all of them. Some of the older 
ones do not have kitchens, so there are congregate settings. 
Even some of the newer ones, have a very small kitchen, but 
they have group social services, and group meals within that 
facility for the people who either can not cook for themselves 
or who are not going to cook properly.
    Ms. Waters. All right, let me ask, if I may Mr. Chairman 
just a little bit, have any units been developed specifically 
for this population, say, outside of urban areas? Fifty units, 
100 units, 200 units, outside the urban area in open spaces 
that is supported by city, county or federal dollars? Anybody 
develop any of that, and do we have the services to go along 
with it if someone developed that kind of model?
    Mr. Netburn. Not specifically in Los Angeles. There are 
probably some around the country. As you just pointed out, 
these are expensive models when you are attaching all of those 
support services, so one of the reasons that we are supporting 
the Samaritan Initiative is to fund those services.
    Ms. Waters. This will not fund those services, will it? 
This is not a lot of money. Is this envisioned to support the 
kind of services I am attempting to describe here? What I would 
like you, and anybody can answer this, do we all agree that the 
chronic homeless who are never going to be able to 
independently take care of themselves, do we agree that that is 
true?
    Mr. Netburn. There are probably some individuals. We always 
say we, empower people to live independently.
    Ms. Waters. Oh, come on. I know. Look, I have been going 
through downtown Los Angeles for years now and we have people 
who are never going to be----
    I would like to think that we empower people as much as we 
possibly can, and that you guys are doing a good job of doing 
that. I would like to think that. But do we recognize that 
there are some people who are never going to be empowered? They 
are chronically homeless, ill, unable to manage themselves and 
their lives, and never ever will be able to. Do we have any 
models that recognize that?
    Mr. Netburn. Yes, I think there are some. There is always 
the hope that they will become more independent, but yes, we 
have some of these models.
    Ms. Waters. No, no.
    Mr. Netburn. Accepting that they will be like that, and 
giving them the----
    Ms. Waters. No, you have people that have been on the 
street in downtown LA for the past 15 or 20 years. So the first 
thing I want to tell you guys is, if we, and I put myself in 
the group with you, if we do not recognize that and develop 
services for that population, we are always going to have the 
homeless on the streets.
    Mr. Netburn. We agree with that and do definitely need to 
fund and create those models.
    Ms. Waters. Does your planning recognize this? And what 
does your planning say about this?
    Mr. Mangano. Absolutely. The Samaritan Initiative is really 
targeted to creating housing for people. Some people will go on 
to live quite independently. They will get jobs.
    Ms. Waters. No, they will not. I am not talking about that.
    Mr. Mangano. Some will. I can show you there are people.
    Ms. Waters. No. No.
    Mr. Mangano. That is their story.
    Ms. Waters. No. I am talking about the people who will not.
    Mr. Mangano. I understand. I am just saying there are some 
people who will.
    Ms. Waters. No, I know that.
    Mr. Mangano. Right.
    Ms. Waters. But I am not talking about them now. I am 
talking about the people who will never ever be able to go on 
and get a job or manage a house. Do we recognize that? Or have 
we not come to that conclusion that there are people who will 
never be able to?
    Chairman Ney. Can I answer that?
    Ms. Waters. Yes.
    Chairman Ney. There are going to be people that no matter 
what you do, they will not be self-sustaining. That is my 
opinion, so I thought I would try to answer it.
    [Laughter.]
    Ms. Waters. I have this theory that we have a population of 
people who are homeless who will never ever be independent. It 
is good social work to talk about empowering them so that they 
will go on and get a job and a house, but they will never ever 
do it. I come from a social work background and I say it. They 
will never be able to do it. Do we have a model that recognizes 
that and will take care of them until they die?
    Mr. Netburn. One that I would point out is HUD funded and 
is referred to as Safe Havens. There are two types. One is 
permanent housing. They tend to be small units of about 25 that 
are for people with very severe mental illness. There are 
really different rules that they are asked to follow because 
there is an understanding that they are in the exact category 
of the people that you were just talking about. They are not 
going to follow rules of the traditional programs. They are 
going to need more flexibility. Some of the programs will allow 
the clients to sign leases. They can stay there the rest of 
their life, and they are very intense social service models.
    In skid row, there is an agency called Lamp Community which 
has really been a pioneer in developing that type of housing. 
We did receive HUD funding a couple of years ago for a project 
on the west side of Los Angeles for a Safe Haven, which the 
city of Santa Monica supported. Recently, the provider 
purchased a building and they are developing it. That would be 
another model that would come to mind.
    Ms. Waters. I am not convinced, based on my limited 
conversation with you today, that that population, I guess that 
is what we are all referring to as the chronically homeless, is 
being serviced or can be serviced in the way that I am talking 
about.
    I just want to say this. You know, we have got the chronic 
homeless who have gone from shelter to shelter to shelter to 
shelter. They change corners and they change pocket parks and 
they die on the street. We know that. At some point in time, we 
have to recognize that. We have to know the difference between 
those that we can transition and we can get services for and we 
can get into jobs and homes and houses and places that they can 
manage, and those that cannot. I guess that is what we are 
trying to talk about. But I am not hearing what I need to hear 
to believe that we are going to be committed to doing that.
    The other thing that I have not heard is I have not heard 
that there has been housing specifically developed for this 
clientele, with the support services. And when I say 
``support,'' I mean everything. I mean the central kitchen. I 
mean the psychiatric services. I mean the daily services that 
keep people busy and involved and all of that.
    I know it is costly, but I just do not hear us admitting 
that that is what we have to have.
    Mr. Mangano. I think the Samaritan Initiative would fund 
exactly that, and there are a number of other programs 
sponsored by HUD and HHS, including the Safe Havens that 
Mitchell mentioned that in fact do target that population. So I 
want to assure you that that population is being served. In 
fact, again in your home state, in San Francisco, the Direct 
Access to Housing program master leases buildings and in those 
buildings places people who we would have thought, if we passed 
by them on the street, they will never get off the street. In 
fact, those people are now placed in those buildings and slowly 
their lives are turning around and they are living in those 
buildings.
    Ms. Waters. Well, I appreciate that. I am going to go out 
and search and take a look and see what is out there. But I 
know that in downtown Los Angeles, there are people who have 
been on the streets many, many years and they have baskets that 
they have been rolling around for 5, 6, 7, 8, 9, 10 years. I 
think it is senseless to talk about anything other than 
permanent services for them. I hope this initiative will get to 
that.
    Mr. Mangano. To the degree that they are placed in housing, 
the services will last as long as they are needed, to assure 
you of that. So if it is needed for a lifetime, the services 
would last that long, because it is done in partnership with 
the local communities as well. So I think there is a 
responsiveness to that population. Those are people who are 
targeted by the Samaritan Initiative.
    Ms. Waters. We shall see. Thank you.
    Chairman Ney. I want to thank the gentlelady. For the 
record, the National Low Income Housing Coalition has a 
statement for the record, a resolution of the U.S. Conference 
of Mayors, agency statements by HUD, HHS, the Department of 
Labor, and Veterans Affairs.
    The Chair notes some members may have additional questions 
for this panel and might want to submit them in writing. 
Without objection, the hearing record will remain open for 30 
days.
    I appreciate your testimony and your passion for this issue 
and your frontline work on this issue.
    I really appreciate Congressman Renzi. I think it is a good 
bill that begins the process of seeing how the government can 
come together with the private sector in a lot of different 
areas to utilize the funding in a collective, collaborative way 
to help the homeless.
    Thank you. The meeting is adjourned.
    [Whereupon, at 1:04 p.m., the subcommittee was adjourned.]


                            A P P E N D I X



                             July 13, 2004


[GRAPHIC] [TIFF OMITTED] T6528.001

[GRAPHIC] [TIFF OMITTED] T6528.002

[GRAPHIC] [TIFF OMITTED] T6528.003

[GRAPHIC] [TIFF OMITTED] T6528.004

[GRAPHIC] [TIFF OMITTED] T6528.005

[GRAPHIC] [TIFF OMITTED] T6528.006

[GRAPHIC] [TIFF OMITTED] T6528.007

[GRAPHIC] [TIFF OMITTED] T6528.008

[GRAPHIC] [TIFF OMITTED] T6528.009

[GRAPHIC] [TIFF OMITTED] T6528.010

[GRAPHIC] [TIFF OMITTED] T6528.011

[GRAPHIC] [TIFF OMITTED] T6528.012

[GRAPHIC] [TIFF OMITTED] T6528.013

[GRAPHIC] [TIFF OMITTED] T6528.014

[GRAPHIC] [TIFF OMITTED] T6528.015

[GRAPHIC] [TIFF OMITTED] T6528.016

[GRAPHIC] [TIFF OMITTED] T6528.017

[GRAPHIC] [TIFF OMITTED] T6528.018

[GRAPHIC] [TIFF OMITTED] T6528.019

[GRAPHIC] [TIFF OMITTED] T6528.020

[GRAPHIC] [TIFF OMITTED] T6528.021

[GRAPHIC] [TIFF OMITTED] T6528.022

[GRAPHIC] [TIFF OMITTED] T6528.023

[GRAPHIC] [TIFF OMITTED] T6528.024

[GRAPHIC] [TIFF OMITTED] T6528.025

[GRAPHIC] [TIFF OMITTED] T6528.026

[GRAPHIC] [TIFF OMITTED] T6528.027

[GRAPHIC] [TIFF OMITTED] T6528.028

[GRAPHIC] [TIFF OMITTED] T6528.029

[GRAPHIC] [TIFF OMITTED] T6528.030

[GRAPHIC] [TIFF OMITTED] T6528.031

[GRAPHIC] [TIFF OMITTED] T6528.032

[GRAPHIC] [TIFF OMITTED] T6528.033

[GRAPHIC] [TIFF OMITTED] T6528.034

[GRAPHIC] [TIFF OMITTED] T6528.035

[GRAPHIC] [TIFF OMITTED] T6528.036

[GRAPHIC] [TIFF OMITTED] T6528.037

[GRAPHIC] [TIFF OMITTED] T6528.038

[GRAPHIC] [TIFF OMITTED] T6528.039

[GRAPHIC] [TIFF OMITTED] T6528.040

[GRAPHIC] [TIFF OMITTED] T6528.041

[GRAPHIC] [TIFF OMITTED] T6528.042

[GRAPHIC] [TIFF OMITTED] T6528.043

[GRAPHIC] [TIFF OMITTED] T6528.044

[GRAPHIC] [TIFF OMITTED] T6528.045

[GRAPHIC] [TIFF OMITTED] T6528.046

[GRAPHIC] [TIFF OMITTED] T6528.047

[GRAPHIC] [TIFF OMITTED] T6528.048

[GRAPHIC] [TIFF OMITTED] T6528.049

[GRAPHIC] [TIFF OMITTED] T6528.050

[GRAPHIC] [TIFF OMITTED] T6528.051

[GRAPHIC] [TIFF OMITTED] T6528.052

[GRAPHIC] [TIFF OMITTED] T6528.055

[GRAPHIC] [TIFF OMITTED] T6528.056

[GRAPHIC] [TIFF OMITTED] T6528.057

[GRAPHIC] [TIFF OMITTED] T6528.058

[GRAPHIC] [TIFF OMITTED] T6528.059

[GRAPHIC] [TIFF OMITTED] T6528.060

[GRAPHIC] [TIFF OMITTED] T6528.061

[GRAPHIC] [TIFF OMITTED] T6528.062

[GRAPHIC] [TIFF OMITTED] T6528.063

[GRAPHIC] [TIFF OMITTED] T6528.064

[GRAPHIC] [TIFF OMITTED] T6528.065

[GRAPHIC] [TIFF OMITTED] T6528.066

[GRAPHIC] [TIFF OMITTED] T6528.067

[GRAPHIC] [TIFF OMITTED] T6528.068

[GRAPHIC] [TIFF OMITTED] T6528.069

[GRAPHIC] [TIFF OMITTED] T6528.070

[GRAPHIC] [TIFF OMITTED] T6528.071

[GRAPHIC] [TIFF OMITTED] T6528.072

[GRAPHIC] [TIFF OMITTED] T6528.073

[GRAPHIC] [TIFF OMITTED] T6528.074

[GRAPHIC] [TIFF OMITTED] T6528.075

[GRAPHIC] [TIFF OMITTED] T6528.076

[GRAPHIC] [TIFF OMITTED] T6528.077

[GRAPHIC] [TIFF OMITTED] T6528.078

[GRAPHIC] [TIFF OMITTED] T6528.079

[GRAPHIC] [TIFF OMITTED] T6528.080

[GRAPHIC] [TIFF OMITTED] T6528.081

[GRAPHIC] [TIFF OMITTED] T6528.082

[GRAPHIC] [TIFF OMITTED] T6528.083

[GRAPHIC] [TIFF OMITTED] T6528.084

[GRAPHIC] [TIFF OMITTED] T6528.085

[GRAPHIC] [TIFF OMITTED] T6528.086

[GRAPHIC] [TIFF OMITTED] T6528.087

[GRAPHIC] [TIFF OMITTED] T6528.088

[GRAPHIC] [TIFF OMITTED] T6528.089

[GRAPHIC] [TIFF OMITTED] T6528.090

[GRAPHIC] [TIFF OMITTED] T6528.091

[GRAPHIC] [TIFF OMITTED] T6528.092

[GRAPHIC] [TIFF OMITTED] T6528.093

[GRAPHIC] [TIFF OMITTED] T6528.094

[GRAPHIC] [TIFF OMITTED] T6528.095

[GRAPHIC] [TIFF OMITTED] T6528.096

[GRAPHIC] [TIFF OMITTED] T6528.097

[GRAPHIC] [TIFF OMITTED] T6528.098

[GRAPHIC] [TIFF OMITTED] T6528.099

[GRAPHIC] [TIFF OMITTED] T6528.100

[GRAPHIC] [TIFF OMITTED] T6528.101

[GRAPHIC] [TIFF OMITTED] T6528.102

[GRAPHIC] [TIFF OMITTED] T6528.103

[GRAPHIC] [TIFF OMITTED] T6528.104

[GRAPHIC] [TIFF OMITTED] T6528.105

[GRAPHIC] [TIFF OMITTED] T6528.106

[GRAPHIC] [TIFF OMITTED] T6528.107

[GRAPHIC] [TIFF OMITTED] T6528.108

[GRAPHIC] [TIFF OMITTED] T6528.109

[GRAPHIC] [TIFF OMITTED] T6528.110

[GRAPHIC] [TIFF OMITTED] T6528.111

[GRAPHIC] [TIFF OMITTED] T6528.112

[GRAPHIC] [TIFF OMITTED] T6528.113

[GRAPHIC] [TIFF OMITTED] T6528.114

[GRAPHIC] [TIFF OMITTED] T6528.115

[GRAPHIC] [TIFF OMITTED] T6528.116

[GRAPHIC] [TIFF OMITTED] T6528.117

[GRAPHIC] [TIFF OMITTED] T6528.118

[GRAPHIC] [TIFF OMITTED] T6528.119


</pre></body></html>
